<html>
<title> - PROTECTION AGAINST SEXUAL EXPLOITATION OF CHILDREN ACT OF 2005, AND THE PREVENTION AND DETERRENCE OF CRIMES AGAINST CHILDREN ACT OF 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 PROTECTION AGAINST SEXUAL EXPLOITATION OF CHILDREN ACT OF 2005, AND THE 
    PREVENTION AND DETERRENCE OF CRIMES AGAINST CHILDREN ACT OF 2005

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                        H.R. 2318 and H.R. 2388

                               ----------                              

                              JUNE 7, 2005

                               ----------                              

                           Serial No. 109-33

                               ----------                              

         Printed for the use of the Committee on the Judiciary


 Available via the World Wide Web: http://www.house.gov/judiciaryFOR 
                               SPINE deg.
  PROTECTION AGAINST SEXUAL EXPLOITATION OF CHILDREN ACT OF 2005, AND 
  THE PREVENTION AND DETERRENCE OF CRIMES AGAINST CHILDREN ACT OF 2005




PROTECTION AGAINST SEXUAL EXPLOITATION OF CHILDREN ACT OF 2005, AND THE 
    PREVENTION AND DETERRENCE OF CRIMES AGAINST CHILDREN ACT OF 2005

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                        H.R. 2318 and H.R. 2388

                               __________

                              JUNE 7, 2005

                               __________

                           Serial No. 109-33

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary

                    U.S. GOVERNMENT PRINTING OFFICE
21-652                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  ADAM SMITH, Washington
MIKE PENCE, Indiana                  CHRIS VAN HOLLEN, Maryland
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                      Jay Apperson, Chief Counsel

           Elizabeth Sokul, Special Counsel for Intelligence

                         and Homeland Security

                 Jason Cervenak, Full Committee Counsel

                  Michael Volkov, Deputy Chief Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              JUNE 7, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable Mark Green, a Representative in Congress from the 
  State of Wisconsin and Member of the Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     3

                               WITNESSES

Ms. Laura Parsky, Deputy Assistant Attorney General, Criminal 
  Division,
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
The Honorable Charlie Crist, Attorney General, State of Florida
  Oral Testimony.................................................    11
  Prepared Statement.............................................    13
Mrs. Carol Fornoff, Mesa, Arizona, mother of a murdered child
  Oral Testimony.................................................    16
  Prepared Statement.............................................    19
Mr. John Rhodes, Assistant Federal Defender, Federal Defenders of 
  Montana
  Oral Testimony.................................................    38
  Prepared Statement.............................................    40

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Robert C. Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    67
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas.............    69
Center for Sex Offender Management, ``Recidivism of Sex 
  Offenders,'' May 2001, available ar http://www.csom.org/pubs/
  recidsexof.pdf.................................................    70
Dennise Orlando, `Sex Offenders,'' Special Needs Bullentin No. 3, 
  September 1998.................................................    90
Department of Rehabilitation and Correction, State of Ohio, 
  ``Ten-Year Recidivism Follow-Up of 1989 Sex Offender 
  Releases,'' April 2001, available at http://
  www.drc.state.oh.us/web/Reports/Ten--Year--Recidivism.pdf......   110
U.S. Department of Justice, Bureau of Justice Statistics, 
  ``Recidivism of Sex Offenders Released from Prison in 1994,'' 
  November 2003, available at http://www.ojp.usdoj.gov/bjs/pub/
  pdf/rsorp94.pdf................................................   140
U.S. Sentencing Commission, ``Report of the Native American 
  Advisory Group,'' November 4, 2003, available at http://
  www.ussc.gov/NAAG/NativeAmer.pdf...............................   188
Jan Looman, Jeffrey Abracen, and Terry P. Nicholaichuk, 
  ``Recidivism Among Treated Sexual Offenders and Matched 
  Controls,'' Journal of Interpersonal Violence, Vol. 15 No. 3, 
  March 2000.....................................................   237
Letter from the Honorable Jon Kyl to the Honorable F. James 
  Sensenbrenner, Jr. (June 9, 2005)..............................   249
Senator Jon Kyl, Introduction of the Streamlined Procedures Act, 
  Congressional Record, pages S5540-S5543........................   257
The Streamlined Procedures Act Section-by-Section Analysis, 
  submitted by the Honorable Senator Jon Kyl.....................   262
S.1088 the ``Streamlined Procedures Act of 2005,'' submitted by 
  the Honorable Senator Jon Kyl..................................   272
U.S. Department of Justice, Bureau of Statistics, ``Criminal 
  Offenders Statistics,'' available at http://www.ojp.usdoj.gov/
  bjs/crimoff.htm................................................   290
Letter from John Rhodes, Assistant Federal Defender to Bobby 
  Vasser, Minority Counsel, Subcommittee on Crime, Terrorism, and 
  Homeland Security..............................................   301

 
PROTECTION AGAINST SEXUAL EXPLOITATION OF CHILDREN ACT OF 2005, AND THE 
    PREVENTION AND DETERRENCE OF CRIMES AGAINST CHILDREN ACT OF 2005

                              ----------                              


                         TUESDAY, JUNE 7, 2005

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Mark 
Green (acting Chair of the Subcommittee) presiding.
    Mr. Green. Good afternoon, everyone. I want to welcome 
everyone to this important hearing to examine the national 
epidemic of crimes against our Nation's children. In recent 
months, our country has been shocked and outraged by a series 
of brutal attacks against our children. Two of these recent 
brutal attacks were committed by criminals in Florida. Nine-
year-old Jessica Lunsford was abducted, raped and buried alive 
and eventually died. And 13-year-old Sarah Lunde was brutally 
murdered. Both of these young girls were murdered by convicted 
sex offenders.
    Just 2 weeks ago, also in Florida, a missing 8-year-old 
girl was found buried under rocks inside a trash bin. A 17-
year-old was later charged with attempted murder and sexual 
battery of the young child. These tragic events in Florida 
occurred after a disturbing series of events in other parts of 
the country.
    In Iowa, Jetsetta Gage, a 10-year-old girl, was abducted 
from her Cedar Rapids home last March and raped and murdered by 
a sex offender convicted of prior lascivious acts with a child. 
In Los Angeles, a 58-year-old suspect was charged this past 
April with child molestation charges and is accused of 
victimizing numerous young boys over a 25-year period. In that 
same month in California, three men were convicted of sexually 
assaulting an unconscious teenage girl as they videotaped the 
brutal sexual attack on a pool table at the home of the 
millionaire father of one of the offenders.
    Last month, an Oregon judge sentenced a sex offender to 
eight additional years in prison for sexually abusing a woman 
when she was 4 and 5 years old. The offender was already in 
prison for molesting a 3-year-old boy after abducting the 3-
year-old and his 1-year-old brother. The record shows that he 
has a history of rape, molestation and torture going back to 
the age of 7, attacking family members, school teachers, 
setting fires, and torturing animals.
    Or take the case of infamous child molester, Larry Don 
McQuay, who was released from prison in Texas. He claimed to 
have molested more than 200 children and vowed to kill the next 
child he molested. McQuay served 8 years of a 25-year sentence 
when his release was mandated under Texas law, and he is now 
back in the community.
    Sadly, these are just a few examples of the brutal acts of 
violence and exploitation of our children occurring each and 
every day. Consider these facts: Statistics show that one in 
five girls and one in 10 boys are sexually exploited before 
they reach adulthood, yet less than 35 percent of the incidents 
are actually reported to the authorities. According to the 
Department of Justice, one in five children receive unwanted 
sexual solicitations online, 67 percent of all victims of 
sexual assault were juveniles, and 34 percent were under the 
age of 12. One of every 7 victims of sexual assault was under 
the age of 6.
    I have introduced two bills, which are the subject of 
today's hearing, H.R. 2318 and H.R. 2388, each of which 
addresses the problems of sexual exploitation of children and 
crimes of violence against children respectively. These 
measures include mandatory minimum penalties which reflect the 
seriousness of the violent crimes and sexual exploitation of 
children.
    Mr. Green. Under H.R. 2388, for Federal crimes of 
kidnapping, maiming, or aggravated sexual abuse, a sex offender 
will be subject to a 30-year mandatory minimum. For assaults 
resulting in serious bodily injury, that is nearly killing or 
permanently disabling a child, sexual offenders will face a 
mandatory minimum of 20 years. And for all other crimes of 
violence against a child, offenders will face a 10-year 
mandatory minimum penalty. Similarly for sexual exploitation 
crimes, offenders will face increased mandatory minimum 
penalties depending on the severity of the crime, the age of 
the victim, and the circumstances of the offense.
    In 2003, Congress enacted the PROTECT Act, which sought to 
restrict the ability of Federal judges to grant downward 
departures in cases involving sex crimes and exploitation of 
our children. The data shows that while in effect, the law was 
working and the number of unwarranted downward departures was 
falling. Since the Supreme Court's decision in United States 
versus Booker, which rendered the Federal sentencing guidelines 
advisory, the need for mandatory minimum penalties in certain 
areas has become even more critical. Congress has an 
institutional right to prescribe the sentencing of criminal 
defendants to reflect the will of the people.
    Mandatory minimum penalties are favored overwhelmingly by 
the American public because they are not willing to entrust 
Federal judges to act in a consistent manner when sentencing 
sexual predators for sexual abuse and exploitation of our 
children. Some on the bench will be attempted to coddle sex 
offenders, to ignore the rights of the law-abiding public to 
live free from crime in the neighborhoods and seek to deviate 
from sentencing guidelines with what they feel is reasonable.
    In the absence of the mandatory sentencing guideline 
scheme, mandatory minimum penalties are the only way in which 
Congress can ensure that fair and consistent sentences to these 
dangerous sexual predators are handed out at the Federal level. 
Congress must act now and must do so to protect our Nation's 
youth from sexual predators in our communities and online on 
the Internet. We simply have no greater resource than our 
children. It has been said that the benevolence of a society 
can be judged on how well it treats its old people and how well 
it treats its young. Our children represent our Nation's 
future. I am anxious to hear from our distinguished panel of 
witnesses and now yield to the Ranking Minority Member of this 
Subcommittee, the gentleman from Virginia, Mr. Bobby Scott.
    Mr. Scott. Thank you, Mr. Chairman and I appreciate you 
convening this hearing. But as usual, every 2 years we are 
pontificating about child crimes and dramatically increasing 
Federal sentences, and we are doing so despite the fact that 
crimes against children prosecuted in Federal Court constitute 
a miniscule percentage of such crimes and represent none of the 
horrendous crimes against children that have been in the media 
in recent months. There is no evidence that Federal 
prosecutions of crimes against children has any significant 
impact on these horrendous State crimes against children, nor 
do we have any evidence that either State or Federal law for 
crimes against children are too lenient. Indeed, we recently 
dramatically increased Federal sentences for crimes against 
children in the PROTECT Act. We have not had enough time or 
enough cases to determine whether or not these draconian 
increases in Federal sentences has had any effect on crime.
    We are moving forward dramatically increasing Federal 
sentences, also in the worst possible way, through increased 
mandatory minimum sentences. Mandatory minimum sentences only 
affect those offenses or those offenses or those who have a 
role in an offense which would warrant a less severe sentence, 
since those who warrant the mandatory minimum or even a more 
serious sentence get those under the sentencing guidelines. I 
call attention to the recommendations released today by a group 
of bipartisan philosophically diverse scholars and high level 
current and former public policy makers, including former 
Attorney General Ed Meese, and former Deputy General Phil 
Hayman indicating that sentencing policies should provide for 
proportionality and sufficient flexibility to reflect 
differences in the role and background of the offenders.
    These increases are occurring at a time when the evidence 
from the Department of Justice is that for sex offenders the 
recidivism rate is lower than other offenders in general with a 
5 percent recidivism rate for new sex offenses and a 3.3 
percent recidivism rate for child molesters recidivating with a 
new offense of that nature. I will ask this study and four 
others from other sources be made part of the record.
    [The information referred to follows in the Appendix]
    Mr. Scott. Also the evidence reveals that the low 
recidivism rate is cut in half with sexual abuse treatment. 
While recidivism is bad, 3 to 5 percent rates with the prospect 
of that being cut in half do not suggest that the situation is 
hopeless, yet there is nothing in any of these bills to ensure 
treatment for these offenders who seek treatment or are already 
receiving sentences and will be leaving prison soon. The bills 
before us suggest that it is better to wait for the 
victimization to occur and then apply draconian penalties.
    One of our speakers at an earlier hearing on the subject, 
criminologist and law professor Frank Zimmer of the Berkeley 
School of Law pointed out that treating all offenses and 
offenders the same and mandating life sentences for repeat 
offenders regardless of the crime, may actually endanger more 
children than it helps. He expressed the concern that putting 
the offender in the position of concluding that once a crime is 
completed or attempted, he is facing a minimum of a life 
sentence, he will more likely conclude that the best chance of 
avoiding detection would be to kill the victim and the witness.
    Certainly, this question should be considered against the 
conventional justification for harsh mandatory minimum 
sentences of forcing co-defendants to testify against their 
partners in crime since these crimes are more often than not 
carried out by lone offenders. We also know that greatly 
increasing Federal sentences would disproportionately affect 
Native Americans simply because they are more likely to fall 
under Federal jurisdiction whereas those who are committing the 
horrendous crimes giving rise to this Federal sentencing frenzy 
actually fall under State jurisdiction.
    We are also doing so without consulting the Native American 
tribal authorities as we have in the past, when we dramatically 
increase sentencing, such as we did with three strikes and you 
are out and the death penalty and the 1994 crime bill. There is 
no evidence that Native Americans have asked that offenders on 
tribal lands be treated more harshly than offenders in State 
courts now right next to them, and it simply appears that 
having politicians being able to prove how tough they are on 
crime in an election year is more important than giving plain 
fairness to Native Americans and respecting their tribal 
sovereignty.
    Finally, Mr. Chairman, the provisions of the bill before us 
exacerbate the already horrendous Federal sentencing scheme. 
For example, under the PROTECT Act, we provided a 5-year 
mandatory minimum sentence to transport a minor across State 
lines or international lines to commit any criminal sex offense 
involving a minor. This bill increases that mandatory minimum 
to 30 years. This means that an 18-year-old high school student 
who transports a minor or causes a minor to travel from 
Washington D.C. to Virginia to engage in consensual sex, 
thereby committing the crime of contributing to the delinquency 
of a minor would be subject to a 30-year mandatory minimum 
sentence. One can only imagine how many times this law was 
violated in this area during prom season and what possible 
sense does it make to mandate a 30-year sentence? And if our 
goal, Mr. Chairman, is to reduce incidents of child abuse, we 
have to look at the cost effectiveness of these initiatives. If 
we are going to sentence somebody to a mandatory minimum of 30 
years in prison, we have to look at the cost and what we could 
have done with that similar amount of money in child abuse 
prevention programs.
    Under H.R. 2388 it appears that a mere fist fight between 
teenagers if one is under 18 and is even slightly injured would 
require a mandatory minimum sentence, even if the younger teen 
was the instigator. The provision limiting habeas corpus 
jurisdiction will only increase litigation and delays and 
increase the risk that innocent people will be put to death.
    Several of the 159 people that were exonerated of their 
crimes in the last 10 years, including some on death row, 
received exoneration more than 20 years after their conviction. 
I look forward to the testimony and enlightenment of our 
witnesses on the bills before us and thank you for convening 
the hearing.
    Mr. Green. Thank you, Mr. Scott. It is the practice of the 
Subcommittee to swear in all witnesses appearing before it. I 
would ask the witnesses to stand and raise their right hands.
    [Witnesses sworn.]
    Mr. Green. Let the record show that each of the witnesses 
answered in the affirmative, please be seated. We have four 
distinguished witnesses with us today. I will introduce three 
of the witnesses and then turn to Mr. Keller of Florida for an 
introduction of our fourth. Our first witness is Laura Parsky, 
the deputy assistant attorney general of the criminal division 
at the United States Department of Justice. In addition to 
serving at the Department of Justice, Ms. Parsky has served as 
director of the international justice and contingency planning 
at the National Security Council. She graduated from Yale 
University and obtained her law degree from Bolt Hall School of 
Law at the University of California at Berkeley. Following law 
school, Ms. Parsky clerked for the Honorable D. Lowell Jenson 
of the United States District Court for the northern district 
of California.
    Our second witness is Carol Fornoff. Mrs. Fornoff is a 
mother of seven in Mesa, Arizona. In 1984, Mrs. Fornoff's 13-
year-old daughter Christy Ann was brutally murdered by a 
criminal who is still on death row awaiting another round of 
habeas review. We look forward to Mrs. Fornoff's testimony 
regarding this horrible tragedy before the Subcommittee today.
    Our third witness will be Mr. John Rhodes, assistant 
Federal defender and branch chief of the Missoula branch office 
in Montana. Mr. Rhodes previously served a temporary duty 
assignment with the defender services division of the 
Administrative Office of the United States Courts. Prior to 
working at the defender services division, he served 6 months 
as special counsel and visiting Federal defender at the United 
States Sentencing Commission.
    Previously, Mr. Rhodes worked as a State public defender 
and as an associate with Dorsey and Whitney. Mr. Rhodes is a 
graduate of DePauw University and Harvard Law School.
    Mr. Keller.
    Mr. Keller. Thank you, Mr. Chairman. I am very pleased 
today to introduce to the Crime Subcommittee, my friend, 
Charlie Crist, the Attorney General for the State of Florida. 
Attorney General Crist has been a real champion in Florida when 
it comes to cracking down against child molesters by making 
sure they serve longer sentences and by using innovative 
technology to track their whereabouts. As a State Senator from 
'92 to '98, Mr. Crist sponsored the stop-turning-out-prisoners 
legislation, which requires criminals to serve at least 85 
percent of their criminal sentence.
    In November of 2002, Mr. Crist was elected Florida's first 
Republican Attorney General. For the past 2\1/2\ years, 
Attorney General Crist has led the fight to establish longer 
prison sentences for criminals who sexually molest children and 
to require tracking devices once they do get out. Attorney 
General Crist understands that the best way to protect young 
children is to keep child predators locked up in the first 
place, because someone who has molested a child will do it 
again and again and again.
    For example, earlier this year, two young Florida girls, 9-
year-old Jessica Lunsford and 13-year-old Sarah Lunde were 
abducted, raped and killed. Both men who confessed to these 
horrific crimes were convicted sex offenders and career 
criminals. Mr. Crist takes these crimes personally and has 
traveled here to Washington today to help do something about 
this nationwide problem. Mr. Attorney General, we are honored 
to have you with us today. We applaud your efforts to protect 
the young people of Florida and we look forward to your 
testimony today.
    Mr. Green. Thank you, Mr. Keller. We do have written 
testimony from each of our witnesses. We would ask if possible 
to limit their testimony to 5 minutes. And we will begin with 
Ms. Parsky. Welcome.

 TESTIMONY OF LAURA PARSKY, DEPUTY ASSISTANT ATTORNEY GENERAL, 
            CRIMINAL DIVISION, DEPARTMENT OF JUSTICE

    Ms. Parsky. Thank you. Mr. Chairman, Ranking Member Scott, 
and distinguished Members of the Subcommittee. Thank you for 
inviting me to testify before you today on sexual crimes 
against children and two legislative proposals to address this 
critical topic. As we all know, crimes against children are 
terrible and reprehensible acts. In addition to the tragedy of 
violent crimes against children, the sexual abuse and 
exploitation of children is particularly horrific, and this 
horror is often exacerbated by child molesters who memorialize 
their repugnant crimes in photographs and videos.
    We, as a Nation, must stand together to fight against these 
crimes and must explore every avenue for strengthening Federal 
laws in this area. Therefore, I commend you for holding this 
hearing today. One of the most prevalent manifestations of the 
growing problem of child exploitation and sexual abuse crimes 
is the escalating presence of child pornography. There has been 
explosive growth in the trade of child pornography due to the 
ease and speed of distribution and the relative anonymity 
afforded by the Internet. The distribution of child pornography 
has progressed beyond exchanges between individuals and now 
includes commercial ventures. We should be ever mindful that 
each image of what we call child pornography graphically 
depicts the sexual abuse of an innocent child.
    Further, once on the Internet, the images are passed 
endlessly from offender to offender and are perhaps used to 
whet the appetite of a pedophile to act out the deviant 
fantasies of the image on yet another child thereby continuing 
the cycle of abuse. Child pornography offenses as well as other 
child exploitation offenses involving enticement of minors to 
engage in illegal sexual activity, travel to engage in illegal 
sexual activity with a minor, or transportation of a minor to 
engage in illegal sexual activity often implicate interstate or 
foreign commerce, and, therefore, are often prosecuted under 
Federal law. While sexual abuse of children is typically 
prosecuted under State law, child sexual abuse on Federal lands 
such as a military base or an Indian territory may be 
prosecuted under Federal law. Accordingly, Federal laws 
prohibiting sexual abuse has an important role in combating 
these crimes.
    Sexual crimes against children are a growing problem. For 
example, the number of Federal child pornography cases has more 
than tripled from fiscal year 1997 to fiscal year 2004. Child 
abuse and neglect cases are also increasing. Accordingly, a 
Federal legislative response is warranted and important. The 
Department of Justice is working hard to combat child 
exploitation and sexual abuse crimes. For example, the criminal 
division's child exploitation and obscenity's section already 
has generated more than a 445 percent increase in its caseload 
over the past 2 years. The Department has also made great 
strides in responding to the misuse of advancing technologies 
in child exploitation offenses. In August 2002, the Department 
created the high tech investigative unit comprised of computer 
forensic specialists equipped to ensure the Department's 
capacity to prosecute the most complex and advanced offenses 
against children committed online. In addition, the Department 
focuses its efforts on investigations that have the maximum 
deterrent impact, including nationwide child pornography 
operations that involve hundreds or thousands of offenders.
    The Department also targets advancing Internet technologies 
to keep pace with the criminal exploitation of technology in 
the realm of crimes against children and works toward the 
critical goal of identifying the victims depicted in images 
depicted in child pornography. Several examples of these 
efforts are detailed in my written statement. A chilling 
example of the important work the Department is doing to fight 
child exploitation is the case of United States versus Mariscal 
prosecuted in the southern district of Florida. In that case, 
defendant Angel Mariscal was sentenced last September to a 100-
year prison term following his conviction on seven counts 
involving the production of child pornography and related 
offenses. Mariscal traveled repeatedly over a 7-year period to 
Cuba and Ecuador where he produced and manufactured child 
pornography including videotapes of himself sexually abusing 
minors, some of them under the age of 12.
    More than 100 victims were filmed exposing their genitals 
and/or engaging in sexual activity with the defendant and at 
least two adult female co-conspirators. Mariscal further 
endangered these minors by being HIV positive. Thankfully none 
of the identified victims has yet tested positive for HIV.
    After videotaping the children using a camcorder, the 
defendant imported the tapes, reproduced them onto CD ROMS or 
VHS in Miami and distributed the CD ROMS and VHS tapes 
throughout the United States by mail or Federal Express. 
Mariscal's arrest has led to the prosecution of many of his 
U.S. customers through the coordinated efforts of the U.S. 
Postal Inspection Service. The Department of Justice deeply 
appreciates recent legislation that Congress has passed to 
combat child exploitation crimes such as the PROTECT Act. This 
extremely useful legislation includes provisions that imposes 
mandatory life imprisonment for defendants who commit two or 
more sex offenses against minors, permits supervised release 
for up to life for child exploitation crimes, and makes it a 
crime to travel in foreign commerce and engage in illicit 
sexual conduct with a minor regardless of whether that was the 
purpose of the travel.
    The Department is still reviewing the bills that are being 
discussed in today's hearing. We are grateful to the Committee 
for pursuing additional legislation to combat these terrible 
crimes and look forward to working with you on this and any 
other legislation that will help protect our children from 
violence and sexual exploitation. I thank you and the 
Subcommittee for the opportunity to speak to you today. And I 
would be happy to answer any questions.
    Mr. Green. Thank you.
    [The prepared statement of Ms. Parsky follows:]

                 Prepared Statement of Laura H. Parsky

                              INTRODUCTION

    Mr. Chairman, Ranking Member Scott, and distinguished Members of 
the Subcommittee, thank you for inviting me to testify before you today 
on sexual crimes against children and two legislative proposals to 
address this critical topic, H.R. 2388, the ``Prevention and Deterrence 
of Crimes Against Children Act of 2005,'' and H.R. 2318, the 
``Protection Against Sexual Exploitation of Children Act of 2005.'' 
Generally, H.R. 2388 would mandate minimum sentences in all cases 
involving violent crimes against children, while H.R. 2318 would 
mandate minimum sentences in cases involving the sexual abuse and 
sexual exploitation of children.
    As we all know, such crimes against children are terrible and 
reprehensible acts. In addition to the tragedy of violent crimes 
against children, the sexual abuse and exploitation of children is 
particularly horrific, and this horror is often exacerbated by child 
molesters who memorialize their repugnant crimes in photographs and 
videos. We all, as a nation, must stand together to fight against these 
crimes and must explore every avenue for strengthening federal laws in 
this area; therefore, I commend you for holding this hearing.
    One of the most prevalent manifestations of the growing problem of 
child exploitation and sexual abuse crimes is the escalating presence 
of child pornography. There has been explosive growth in the trade of 
child pornography due to the ease and speed of distribution, and the 
relative anonymity, afforded by the Internet. The distribution of child 
pornography has progressed beyond exchanges between individuals and now 
includes commercial ventures. We should be ever mindful that each image 
of what we call child pornography graphically depicts the sexual abuse 
of an innocent child. Further, once on the Internet, the images are 
passed endlessly from offender to offender and perhaps used to whet the 
appetite of a pedophile to act out the deviant fantasies of the image 
on yet another child, thereby continuing the cycle of abuse. Child 
pornography offenses, as well as other child exploitation offenses 
involving enticement of minors to engage in illegal sexual activity, 
travel to engage in illegal sexual activity with a minor, or 
transportation of a minor to engage in illegal sexual activity often 
implicate interstate or foreign commerce. Accordingly, these offenses 
are often prosecuted under federal law. On the other hand, sexual abuse 
of children is typically prosecuted under state law. When a child is 
sexually abused on federal land such as a military base or in Indian 
territory, depending on the circumstances, the offense may be 
prosecuted under federal law. Accordingly, federal laws prohibiting 
sexual abuse have an important role in combating these devastating 
crimes, even though most sexual abuse cases are prosecuted under state 
statutes.

             CRIMES AGAINST CHILDREN ARE A GROWING PROBLEM

    Crimes against children such as child exploitation and sexual abuse 
are unfortunately a growing problem. For example, according to the 
Executive Office for United States Attorneys, in Fiscal Year 1997, 352 
cases were filed by the Department of Justice charging child 
pornography crimes (18 U.S.C. Sections 2251-2260), and 299 convictions 
were obtained. In Fiscal Year 2004, child pornography charges were 
filed against approximately 1,486 defendants, and approximately 1,066 
convictions on such charges were obtained.
    Nationwide, according to the Department of Health and Human 
Services' 2003 report on child maltreatment, an estimated 906,000 
children were victims of child abuse or neglect. Approximately 20 
percent of these victims were physically abused, and approximately 10 
percent were sexually abused. Moreover, according to that report, 
Pacific Islander children and American Indian or Alaska Native children 
are among those experiencing the highest rates of victimization. As the 
special maritime and territorial jurisdiction of the United States may 
cover many of these children, a federal legislative response to 
violence against children and child sexual abuse is warranted and 
important.

   THE DEPARTMENT OF JUSTICE IS AGGRESSIVELY FIGHTING CRIMES AGAINST 
                                CHILDREN

    The Department of Justice is working hard to combat child 
exploitation and sexual abuse crimes. For example, the Criminal 
Division's Child Exploitation and Obscenity Section (CEOS) already has 
generated a more than 445% increase in its caseload, including child 
pornography cases and investigations, handled in the past two years. In 
addition to increasing the sheer number of investigations and 
prosecutions brought by our attorneys, the quality and import of the 
cases has increased substantially, with a focus on producers and 
commercial distributors.
    The Department of Justice has also made great strides in responding 
to the misuse of advancing technologies in child exploitation offenses. 
In August 2002, the Department created within CEOS the High Tech 
Investigative Unit (HTIU), which consists of computer forensic 
specialists equipped to ensure the Department's capacity to prosecute 
the most complex and advanced offenses against children committed 
online. The HTIU renders expert forensic assistance and testimony in 
districts across the country in the most complex child pornography 
prosecutions conducted by the Department. Additionally, the HTIU 
currently receives and reviews an average of more than 200 tips per 
month from citizens and non-governmental organizations, such as the 
National Center for Missing and Exploited Children, and initiates 
investigations from these tips.
    The Department focuses its efforts on investigations that have the 
maximum deterrent impact. For example, CEOS is currently coordinating 
17 nationwide operations involving child pornography offenders. These 
are significant investigations of national impact. Nearly each one of 
the 17 involves hundreds or thousands, and in a few cases tens of 
thousands, of offenders. The coordination of these operations is 
complex, but the results can be tremendous. By way of example, the FBI 
is currently investigating the distribution of child pornography on 
various ``member-only'' online bulletin boards. As of March 19, 2005, 
the investigation had yielded 180 search warrants, 75 arrests, 130 
indictments, and 61 convictions.
    Quickly advancing Internet technologies present many challenges to 
investigators, and the Department is determined to keep pace with the 
criminal exploitation of technology in the realm of crimes against 
children. As child pornographers have started using peer-to-peer file 
sharing networks to distribute their images, national enforcement 
initiatives against peer-to-peer offenses have been launched. These 
initiatives encompass operations by the Federal Bureau of 
Investigation, the Department of Homeland Security, Immigration and 
Customs Enforcement (ICE), and state and local Internet Crimes Against 
Children task forces. Since the fall of 2003, these initiatives 
collectively have resulted in more than 1000 investigations, 350 
searches, and at least 65 arrests.
    The Department also works toward the critical goal of identifying 
the victims depicted in images of child pornography, so that they can 
be rescued and protected from further abuse. One method for achieving 
this goal is already underway. The FBI Endangered Child Alert Program 
(ECAP) was launched on February 21, 2004, by the FBI's Innocent Images 
Unit and is conducted in partnership with CEOS. The purpose of ECAP is 
to proactively identify unknown subjects depicted in images of child 
pornography engaging in the sexual exploitation of children. Since 
ECAP's inception, seven ``John Doe'' subjects have been profiled by 
America's Most Wanted, and with the assistance of tips from viewers, 
five have been identified. More importantly, 31 victims (so far) in 
Indiana, Montana, Texas, and Colorado have been identified as a result 
of this initiative. All of the victims had been sexually abused over a 
period of years, some since infancy. CEOS is working with the field to 
identify suitable targets for this program, and we will continue to 
ensure that this program is utilized to its maximum potential.
    A chilling example of the important work the Department is doing to 
fight child exploitation is the case of United States v. Mariscal, 
prosecuted in the Southern District of Florida. In that case, defendant 
Angel Mariscal was sentenced last September to a 100-year prison term, 
following his conviction on seven counts relating to the production of 
child pornography and related offenses. Mariscal had traveled 
repeatedly over a seven-year period to Cuba and Ecuador, where he 
produced and manufactured child pornography, including videotapes of 
himself sexually abusing minors, some under the age of 12. More than 
100 victims were filmed exposing their genitals and/or engaging in 
sexual activity with the defendant and at least two adult female co-
conspirators. Mariscal further endangered these minors, because he is 
HIV-positive; thankfully, none of the identified victims has yet tested 
positive for HIV. After videotaping the children using a camcorder, the 
defendant imported the tapes, reproduced them onto CD-ROMS or VHS tapes 
in Miami, and distributed the CD-ROMs and VHS tapes throughout the 
United States by mail or Federal Express. Mariscal would advertise 
these items by mail, and in 2002, the child pornography sold for 
anywhere from $595.00 to $995.00 per item. Customers were also given 
the option of writing their own fantasy script. Mariscal's arrest has 
led to the prosecution of many of his customers across the country due 
to the coordinated efforts of the U.S. Postal Inspection Service and 
CEOS.

  RECENT LEGISLATION HAS BEEN INSTRUMENTAL IN THE DEPARTMENT'S FIGHT 
                   AGAINST CHILD EXPLOITATION CRIMES

    The Department of Justice deeply appreciates recent legislation 
that Congress has passed to combat child abuse and child exploitation 
crimes, such as the PROTECT Act. We have found that legislation 
extremely useful and have used it effectively, as shown by the 
following examples.
    Section 106 of the PROTECT Act, codified at 18 U.S.C. Sec. 3559(e), 
imposes mandatory life imprisonment for a defendant convicted of a 
federal sex offense in which the victim is a minor, if the defendant 
has a prior sex conviction in which a minor was the victim, unless the 
sentence of death is imposed. In United States v. Albert J. Kappell, 
prosecuted in the Western District of Michigan, the defendant was 
sentenced in March 2004 to life imprisonment for his conviction on nine 
counts of sexual abuse of two young girls, ages six and three. The 
victims, who are Native Americans, are enrolled members of the Keweenaw 
Bay Indian Community (KBIC) in Michigan's Upper Peninsula. Kappell, a 
non-Indian, repeatedly abused the young girls, including with acts of 
penile and digital penetration, during a four-month period in which he 
lived with the girls' mother. Because Kappell had been previously 
convicted of sexual abuse against a minor in 1982, he was sentenced to 
a mandatory life term of imprisonment pursuant to this new sentencing 
provision of the PROTECT Act.
    Section 101 of the PROTECT Act, codified at 18 U.S.C. Sec. 3583(k), 
permits a term of supervised release of any number of years up to the 
life of the defendant for child exploitation crimes. In United States 
v. Larry N. Cole, prosecuted in the Southern District of Texas, the 
defendant was sentenced in January 2004 to more than six years in 
prison and court supervision for the rest of his life for possessing 
over 300 images of child pornography on several computers. A life term 
of supervised release was imposed under the PROTECT Act in recognition 
of the recidivist nature of Cole's conduct.
    Section 105 of the PROTECT Act, codified at 18 U.S.C. Sec. 2423(c), 
makes it a crime to travel in foreign commerce and engage in illicit 
sexual conduct with a minor, regardless of whether that was the purpose 
of the travel. This is a critical improvement over the previous law, 
under which the government had to prove that the perpetrator traveled 
for the purpose of engaging in a sexual act with a minor. The maximum 
penalty for this new offense is 30 years' imprisonment. In United 
States v. Michael Lewis Clark, prosecuted in the Western District of 
Washington, United States citizen Michael Lewis Clark was arrested in 
June 2003 in Cambodia for sexually abusing two Cambodian boys, ages 10 
and 13. Clark was charged with engaging in illicit sexual conduct after 
travel in foreign commerce. The case was the first such prosecution 
under the new provision of the PROTECT Act. Clark had flown to Cambodia 
in May 2003, but he had also spent considerable time in Cambodia over 
the previous five years. The investigation revealed that Clark targeted 
boys ranging from 10 to 18 years of age along the river front area of 
Phnom Penh, Cambodia, and would pay the boys for engaging in sexual 
contact with him. Clark pled guilty and was sentenced to 97 months of 
imprisonment. He currently has an appeal pending.

                        H.R. 2388 AND H.R. 2318

    Both H.R. 2388 and H.R. 2318 would impose additional mandatory 
minimum sentences for child exploitation and sexual abuse crimes. The 
Department of Justice supports mandatory minimum sentences in 
appropriate circumstances. In a way sentencing guidelines cannot, 
mandatory minimum statutes provide a level of uniformity and 
predictability in sentencing. They deter certain types of criminal 
behavior, determined by Congress to be sufficiently egregious as to 
merit these penalties, by clearly forewarning the potential offender 
and the public at large of the minimum potential consequences of 
committing such offenses. Moreover, mandatory minimum sentences can 
also incapacitate dangerous offenders for long periods of time, thereby 
increasing public safety. In the context of sexual abuse crimes against 
children, this can be particularly important. Finally, in cases 
involving multiple offenders, mandatory minimum sentences provide an 
indispensable tool for prosecutors, because they provide the strongest 
incentive for defendants to cooperate against the others who were 
involved in their criminal activity.
    In addition, H.R. 2318 effectively would restrict the jurisdiction 
of federal courts to entertain a first petition for federal habeas 
corpus review, in cases involving the murder of a child, to the same 
grounds that now govern their ability to consider second or successive 
petitions for federal habeas corpus review filed by any state prisoner. 
Thus, in state cases involving the murder of a child, federal habeas 
courts would no longer be able to review any exhausted federal 
constitutional claim; rather, federal courts would only have 
jurisdiction to consider habeas claims based on (1) new rules of 
constitutional law that have been made retroactively applicable by the 
Supreme Court, or (2) newly discovered evidence that clearly and 
convincingly establishes that, but for the existence of a 
constitutional error, no reasonable fact finder would have found the 
petitioner guilty of the underlying offense. Although we are currently 
analyzing this provision, we have two preliminary concerns.
    First, while we agree that those who murder children should be 
punished without undue delay, we note that other murderers would not be 
covered by this provision. We ask the Subcommittee to consider whether 
other categories of condemned murderers should be subject to 
accelerated federal habeas review as well. We also ask the Subcommittee 
to consider whether the laudable goal of accelerating habeas corpus 
review for child-killers would run the risk of diverting judicial 
resources so that the already-long delays in providing federal habeas 
review for other murderers, particularly those under sentences of 
death, may be inadvertently lengthened.
    Second, we note that this provision would only cover habeas claims 
under Section 2254 and not claims for post-conviction relief under 
Section 2255. We ask the Subcommittee to consider whether it would be 
appropriate to consider applying the same procedures for child killers 
in federal custody.

                               CONCLUSION

    In sum, the Department of Justice shares your goals of protecting 
children from violence and sexual exploitation and looks forward to 
working with you on H.R. 2388 and H.R. 2318. We deeply appreciate the 
legislative tools that Congress has already provided law enforcement in 
our fight against these awful crimes and your commitment to consider 
additional measures that would aid us in our efforts.
    Mr. Chairman, I again thank you and the Subcommittee for the 
opportunity to speak to you today, and I would be pleased to answer any 
questions the Subcommittee might have.

    Mr. Green. Attorney General Crist.

  TESTIMONY OF THE HONORABLE CHARLIE CRIST, ATTORNEY GENERAL, 
                        STATE OF FLORIDA

    Mr. Crist. Thank you, Mr. Chairman and Ranking Member 
Scott. I want to thank Congressman Keller for his kind 
introduction and I want to say hello to my friend Congressman 
Feeney. On behalf of the State of Florida and the many State 
Attorneys General, I thank you for the opportunity to address a 
problem that is as horrific as it is pervasive. The problem of 
sex crimes against children has been a blight on society for 
far too long, but it seems to have exploded onto the national 
consciousness as a result of a series of recent high profile 
cases.
    Sadly, several of these cases have occurred in my own 
State. I believe this is more a consequence of our State's 
appeal to newcomers than it is an indication of any systemic 
problem unique to Florida, but it has made us acutely aware of 
the complexities of the issue. Florida is home to some 34,000 
registered sex offenders, approximately 5,000 of whom are 
classified as sexual predators. The odds are that in every 
neighborhood in every city, there is a sex offender living down 
the street. It is highly likely that every Floridian, and 
probably every American, drives past the home of a sex offender 
on a regular basis without even knowing it.
    I believe it is no accident that our founding fathers 
stressed the importance of safety and security by placing in 
the very first line of the United States Constitution the 
mandate that the very purpose of our Government is to, ``ensure 
domestic tranquility.'' Little we do as public servants will 
really matter if we do not do something to prevent our most 
innocent citizens from falling victim to the unspeakable 
horrors committed by sex offenders and sex predators. The 
experts tell us that someone who has molested a child will do 
it again and again.
    Child molesters are dangerous, and they will remain 
dangerous as long as they can roam unimpeded in our 
neighborhoods, our schools, our churches, our synagogues, and 
our playgrounds. To make a meaningful difference, I believe we 
will have to employ a multi-faceted strategy embracing a wide 
range of approaches, including prevention, education, tracking, 
and enforcement. Beginning with the tragic abduction and murder 
of 11-year-old Carlie Brucia in Sarasota only 16 months ago, 
Florida has taken numerous steps to protect children from the 
monsters who would prey upon them.
    There is still much work to be done, but I believe these 
initiatives represent an important first start. The best way to 
eliminate sex crimes against children, of course, is to prevent 
them from happening in the first place. We may never be able to 
totally eliminate the predators who commit these deviant acts, 
so we must do what we can to keep young boys and girls from 
becoming their victims. In Florida, we have directed our 
prevention and education initiatives at both parents and 
children. One of our most important steps was taken 3 weeks ago 
with the help of an outstanding corporate citizen, Pitney 
Bowes. On May 17, Pitney Bowes' chairman and CEO Michael 
Critelli and I unveiled an enhanced State website that for the 
first time, it lets parents and other Floridians zero in on 
registered sex offenders who live nearby. The Florida 
Department of Law Enforcement maintains a database of 34,000 
registered sex offenders and sexual predators, one of the 
largest of its kind in the Nation. For the past 10 years, a 
website maintained by that agency has allowed Floridians to 
search for sex offenders as well as predators. This has been an 
extremely useful service, but it was limited. Parents could 
find out which sex offender were registered to live in the same 
town or zipcode, but unless a parent was familiar with every 
street in that zipcode, it was not always possible to know just 
how close the offender might live.
    Now thanks to user-friendly software developed by Pitney 
Bowes and donated to the State of Florida, parents can find 
that out. When we announced the new system, we did a sample 
search to see if any registered sexual offenders lived near our 
State Capitol. We found out that within 3 miles, 96 sexual 
offenders resided. Thanks to our new website search parents and 
others throughout Florida will be able to pinpoint the 
addresses of these registered sex offenders. Our other program 
for children was launched last October when we introduced the 
Escape School program to Florida. At hour-long programs 
conducted at public schools throughout the State, we have had 
the opportunity to better empower children as to how to escape 
the possibility. As I said earlier, the case of Carlie Brucia 
which occurred in Sarasota 16 months ago, an 11-year-old girl 
being abducted from a carwash parking lot was played over and 
over again on national television. That was followed by a case 
that occurred including the Jessica Lunsford case where 
Congresswoman Ginny Brown-Waite has led the effort, along with 
Congressman Mark Foley, to try to stop those kinds of things 
from happening on a national level and I applaud their effort.
    There was another case that got a lot less play. This 
occurred in Deltona, Florida, Volusia County. It affected 6 
innocent Floridians who were beaten to death with baseball bats 
in the wee hours on August 6 of last year. Those cases 
involving Carlie Brucia, Jessica Lunsford, Sarah Lunde in the 
Tampa Bay area where my family resides, and the 6 innocent 
Floridians in Deltona, Volusia County, Florida, all had a 
common theme and a common thread. The common thread was that 
each and every one of these cases had somebody who had already 
been in prison in Florida. They had served their time and 
gotten out, they had been placed on probation, given a second 
chance, been on the privilege of probation--it is a privilege 
that our criminal justice extends. They all violated probation. 
At the time they violated, they go before a judge, and the 
judge has to make a determination of whether or not that person 
should go back to jail or stay free.
    Regrettably, in each and every one of those cases, the 
judges decided to let them stay out. And in Sarasota, he saw 
Carlie Brucia, in Citrus County, Jessica Lunsford, in 
Hillsborough County, Sarah Lunde, and in Deltona, Volusia 
County, those six innocent Floridians. We must do more to make 
sure we lock these bad people up and protect the citizens of 
our State and our country.
    Mr. Green. Thank you, General Crist.
    [The prepared statement of Mr. Crist follows:]

                  Prepared Statement of Charlie Crist

    Good afternoon Chairman Coble, Ranking Member Scott, and 
distinguished members of the Subcommittee.
    On behalf of the State of Florida and the many state attorneys 
general, I thank you for this opportunity to address a problem that is 
as horrific as it is pervasive.
    The problem of sex crimes against children has been a blight on 
society for far too long, but it seems to have exploded onto the 
national consciousness as a result of a series of recent high-profile 
cases. Sadly, several of these cases have occurred in my own state. I 
believe this is more a consequence of our state's appeal to newcomers 
than it is an indication of any systemic problem unique to Florida, but 
it has made us acutely aware of the complexities of this issue.
    Florida is home to some 34,000 registered sex offenders, 
approximately 5,000 of whom are classified as sexual predators. The 
odds are that in every neighborhood, in every city, there is a sex 
offender living down the street. It is highly likely that every 
Floridian--and probably every American--drives past the home of a sex 
offender on a regular basis without even knowing it.
    I believe it was no accident that the Founding Fathers stressed the 
importance of safety and security by placing in the very first line of 
the U.S. Constitution the mandate that the very purpose of our 
government is ``to insure domestic tranquility.'' Little we do as 
public servants will really matter if we do not do something to prevent 
our most innocent citizens from falling victim to the unspeakable 
horrors committed by sex offenders and predators.
    The experts tells us that someone who has molested a child will do 
it again and again. Child molesters are dangerous, and they will remain 
dangerous as long as they can roam unimpeded in our neighborhoods, our 
schools, our churches, our playgrounds.
    To make a meaningful difference, I believe we will have to employ a 
multi-faceted strategy embracing a wide range of approaches including 
prevention and education, tracking and enforcement.
    Beginning with the tragic abduction and murder of 11-year-old 
Carlie Brucia in Sarasota 16 months ago, Florida has taken numerous 
steps to protect children from the monsters who would prey on them. 
There is still much work to be done, but I believe these initiatives 
represent an important start.

                        PREVENTION AND EDUCATION

    The best way to eliminate sex crimes against children, of course, 
is to prevent them from happening in the first place. We may never be 
able to totally eliminate the predators who commit these deviant acts, 
so we must do what we can to keep young boys and girls from becoming 
their victims.
    In Florida, we have directed our prevention and education 
initiatives at both parents and children.
    One of our most important steps forward was taken three weeks ago 
with the help of an outstanding corporate citizen, Pitney Bowes. On May 
17, Pitney Bowes Chairman and CEO Michael Critelli and I unveiled an 
enhanced state website that for the first time lets parents and other 
Floridians zero in on registered sex offenders who live nearby.
    The Florida Department of Law Enforcement maintains a database of 
34,000 registered sex offenders and sexual predators, one of the 
largest of its kind in the nation. For the past 10 years, a website 
maintained by that agency has allowed Floridians to search for sex 
offenders and predators.
    This has been an extremely useful service, but it was limited. 
Parents could find out which sex offenders were registered to live in 
the same town or zip code. But unless a parent was familiar with every 
street in the zip code, it was not always possible to know just how 
close the offender lived.
    Now, thanks to user-friendly software developed by Pitney Bowes and 
donated to the State of Florida, parents can type in their home 
address--or, if they prefer, their child's school address, church or 
any other place they choose--and see how many sex offenders live within 
one mile. If they wish, they can expand the search up to five miles.
    The new system crosses zip code and city or county lines, so it 
lets you know if sex offenders or sexual predators live close by, even 
if they live in a different zip code or county. It will tell how far 
away the sex offender lives, and can even produce a map so parents can 
figure out alternate routes for their children to travel safely. With a 
few more clicks, an internet user can visit our state Department of 
Corrections web site and pull up a mug shot, prison history and other 
information about any sex offender they find in their neighborhood.
    When we announced the new system, we did a sample search to see 
whether any registered sex offenders lived near the State Capitol in 
Tallahassee. Much to our surprise, we found that there are 96 sex 
offenders living within three miles of the Capitol--with the nearest 
one just three-tenths of a mile away.
    Thanks to our new search website, parents and others throughout 
Florida will be able to pinpoint the addresses of registered sex 
offenders and predators, virtually anywhere in our state.
    Two other important elements of our prevention efforts are aimed at 
the children themselves.
    Last year our office placed a link on our home page for NetSmartz, 
an interactive educational safety resource that teaches kids and teens 
how to stay safer on the Internet. NetSmartz was put together by the 
National Center for Missing and Exploited Children and the Boys & Girls 
Clubs of America, and is aimed at children ages 5 to 17.
    As adults, we all immediately recognize the risks to children 
associated with the Internet. But the harsh reality is that, despite 
our best efforts, children will explore the online world without an 
adult to supervise them. That is why it is especially important that 
children learn that people they first ``meet'' on the Internet should 
never be considered a friend. They must learn what kinds of questions 
and pictures are inappropriate, and to tell a trusted adult if they are 
ever approached online with such information.
    NetSmartz offers helpful information through age-appropriate 
interactive lessons. It can reach children in a way most adults cannot. 
This makes it another valued facet of our efforts to use a combination 
of prevention and education, tracking and enforcement to stop sex 
offenders from threatening our children.
    Our other program for children was launched last October when we 
introduced the Escape School program to Florida. At hour-long programs 
conducted at public schools throughout the state, experts teach 
children how to make smart, safe choices in potentially dangerous 
situations. We want children to know how to do whatever it takes to get 
away from someone who might harm them.
    To date, our office has conducted 25 Escape School programs 
attended by some 4,669 Florida children and parents. We hope no Florida 
child is ever forced to rely on the skills taught at Escape School. But 
it is comforting to know that so many children have had the opportunity 
to learn the techniques, just in case.

                                TRACKING

    The February 2004 murder of Carlie Brucia shocked the nation. 
Millions of Americans saw the horrifying security camera video of this 
precious 11-year-old girl being abducted from a parking lot, and all of 
Florida mourned when it was learned that Carlie had been killed.
    That sadness turned to anger when it was learned that her accused 
killer was a man whose history showed a propensity for violent crimes. 
He had violated terms of his probation--but had not been reincarcerated 
for these violations.
    The months that followed Carlie's murder brought reports of more 
terrible crimes against young Floridians by perpetrators who had 
histories of criminal violence.
    These awful incidents came to a head with the murders earlier this 
year of 9-year-old Jessica Lunsford and 13-year-old Sarah Lunde. The 
men who confessed to abducting, raping and killing each girl were 
convicted sex offenders. The man who said he killed Jessica was a 
probation violator who registered with local authorities as required by 
law--but then moved to a mobile home 150 yards from Jessica's home 
without telling anyone.
    Jessica's father, Mark Lunsford, is a true American hero. Just 
weeks after his beloved daughter was ripped from his life forever, this 
quiet, unassuming man was in Tallahassee promoting legislation to make 
sure no other Florida father had to endure the anguish he was still 
experiencing. The result was the Jessica Lunsford Act, which 
establishes longer prison sentences for criminals who sexually molest 
children and requires tracking devices once they do get out.
    This measure could not have become law without the extraordinary 
efforts of Mark Lunsford, as well as ``America's Most Wanted'' host 
John Walsh--himself a Floridian whose son was abducted, sexually 
assaulted and murdered. Governor Jeb Bush also deserves praise for 
quickly signing this bill into law.
    As helpful as the Jessica Lunsford Act may be, I believe it does 
not go far enough to stop sex offenders from violating probation and 
victimizing more young children. Using ankle bracelets with GPS 
technology to track sex offenders will let us know where they are, but 
it will not prevent them from committing more crimes. The only way to 
make sure they do not ruin the lives of more young children is to keep 
them locked up in the first place.
    We know the people who are committing these horrible crimes. They 
are people who already committed crimes. They are people who, at least 
in Carlie and Jessica's cases, violated the terms of their probation. 
To stop these people, I will continue pushing the Florida Legislature 
to change the law in order to require that violent felons who violate 
probation be returned directly to jail unless a judge holds a hearing 
and determines that the offender does not pose a danger to the 
community.
    Tracking bracelets are good--but prison bars are better.

                              ENFORCEMENT

    All indications are that Jessica Lunsford and Sarah Lunde were 
careful, intelligent girls, yet they were still abducted from their own 
homes. There are some things that education programs simply will not 
prevent. Ultimately, our ability to limit the activities of sex 
offenders who prey on children will depend on enforcement and 
prosecution.
    Just last week, my office won a conviction against a 52-year-old 
man who tried to use an Internet chat room to lure a 13-year-old boy to 
his home to engage in sexual activity and to view child pornography. 
Unfortunately for the man, the 13-year-old boy turned out to be an 
undercover officer, and now this sex offender faces up to 75 years in 
prison.
    Local law enforcement throughout Florida, and I am sure throughout 
the nation, has done a remarkable job responding in the wake of so many 
terrible incidents. Allow me to give you an example from the small 
North Florida town of Green Cove Springs, population about 5,600.
    Police Chief Gail Russell made a decision that sex crimes against 
children would be a priority. In the past 18 months, the police 
department has arrested 14 `travelers' in cases where a child has left 
home or been targeted by an adult, via the Internet, to leave home. The 
police department has identified and referred 10 cases to other 
jurisdictions, one of which involved 20 potential child victims in 
other states. One computer seized through the department's efforts 
contained 3,000 pornographic images of children and 1,000 videos.
    This is a clear example of what even a small police department can 
do when it makes sex crimes against children a priority. But they 
cannot do it alone. I am pleased that last month, the Florida 
Legislature agreed to establish a Cyber Crime Unit within the Attorney 
General's Office. This small but dedicated unit will target internet 
crimes against children and will work closely with local law 
enforcement agencies throughout the state.
    We at the state level will do whatever we can to support these 
efforts. But in today's mobile and electronic society, sex crimes know 
no political boundaries. That is why we are so encouraged to see your 
subcommittee, and the entire Congress, giving serious consideration to 
national legislation to address this issue.
    In the aftermath of Carlie Brucia's death, Congresswoman Katherine 
Harris offered a significant proposal to create a national sex 
offenders registry. I enthusiastically support establishment of such a 
system, and offer the full assistance of my office to bring this to 
fruition. For a state like Florida, which attracts so many from other 
areas, a national registry would make it much easier for local law 
enforcement agencies to learn when sex offenders from other places move 
into our state.
    I am also gratified by the strong commitment shown by other members 
of Florida's Congressional Delegation, especially Representatives Mark 
Foley and Ginny Brown-Waite, to finding workable solutions to this most 
difficult problem.
    We also support the Department of Justice's work coordinating 
efforts to link various state offender databases. Short of a full-
fledged nationwide registry, such a system of inter-connected state 
databases would be a meaningful help to local and state agencies. The 
Department's participation in joint local-state-federal operations, 
including two Internet Crimes Against Children (ICAC) task forces in 
Florida, has been indispensable in bringing offenders to justice.
    As I said earlier, we cannot rely on one single approach, or one 
single level of government, to successfully target sex crimes against 
children. We must maintain and expand prevention initiatives, tracking 
activities and enforcement efforts. We must fight the battle at the 
local level and the state level.
    But in the end, the success of these efforts will depend on the 
overall coordination and resources that can come only through a 
nationwide commitment to wiping out this blight.
    With the well-being of American youth at stake, no amount of 
commitment can be considered too much.
    I commend this subcommittee for its interest in this important 
issue, and I look forward to working with you as we craft meaningful 
national legislation to protect America's children.
    Again, Mr. Chairman, I am grateful for the opportunity to 
contribute to this hearing and to help ensure that the legacies of 
Carlie Brucia, Jessica Lunsford, Sarah Lunde and so many other innocent 
victims of sexual predators will serve to prevent other such tragedies 
in the future.
    Thank you.

    Mr. Green. Mrs. Fornoff, welcome.

TESTIMONY OF CAROL FORNOFF, MESA, ARIZONA, MOTHER OF A MURDERED 
                             CHILD

    Mrs. Fornoff. Thank you for inviting me to testify. My 
husband Roger and I are here today to tell you about our 
daughter Christy Ann Fornoff. Christy was our youngest 
daughter. She was a loving child, very gentle. She often seemed 
to make friends with the kids at school who weren't so popular. 
She was very dear to us. In 1984, our family was living in 
Tempe, Arizona, and Christy was 13-years-old. Christy Ann and 
her brother Jason both held jobs as news carriers for the 
Phoenix Gazette, a local newspaper. Roger and I believed that 
jobs like this would teach our children responsibility while 
also helping them earn a little money.
    After dinner on Wednesday evening, May 9, 1984, both 
Christy Ann and Jason had been invited to go jumping on the 
trampoline. Jason went but Christy had just had a cast removed 
from her ankle. So instead, she went to collect on her 
newspaper's route at the apartment complex near our home. 
Christy delivered papers at the complex everyday. It was two, 
just two short blocks from our house. Nevertheless, it was 
getting dusk, so I went with her. She rode her brother's bike 
while I walked alongside with our little dog. At the first 
apartment that Christy visited, I was stopped by a neighbor who 
wanted to talk about our cute dog.
    Christy went on to the next apartment alone, and I followed 
a few minutes later. When I got there, the bike was outside, 
but there was no Christy. I started calling her name, but there 
was no answer. Our dog started to get so nervous. After a few 
minutes I ran home and came back with my daughter's boyfriend. 
We went to the apartment and asked. They said Christy had been 
here, but she had left about 10 minutes ago. While I knew that 
Christy wouldn't leave her brother's bike, I ran home again. My 
husband had just arrived at home and I told him that Christy 
was missing. He immediately called the police and then went to 
the apartment complex and began knocking on doors. Outside of 
one apartment, people standing nearby told him, don't bother 
knocking on that door, that is the maintenance man and he is 
looking for Christy.
    Shortly after, the maintenance man joined Roger in the 
search for Christy. That night, police helicopters with search 
lights examined every corner of our neighborhood. Our son drove 
up and down everywhere in the area on his motorcycle. Christy's 
newspaper collection book was found over a fence by the 
apartment complex but no one found Christy. Two days later, a 
policeman knocked on our door. Christy's body had been 
discovered wrapped in a sheet lying behind a trash dumpster in 
that apartment complex. We were absolutely devastated. We had 
began hoping against hope and couldn't believe that our 
beautiful daughter was dead. Christy's body was taken to a 
morgue so an autopsy could be performed.
    On Sunday, which was Mother's Day, we were able to view 
Christy's body. Mother's Day has never been the same since. 10 
days after Christy's body was found, the maintenance man at the 
apartment complex, the same man who had been looking for her 
that night, was arrested for her murder. Christy had been 
sexually assaulted and suffocated. There was blood, semen and 
hair on Christy's body that was consistent with that of the 
maintenance man. Vomit on Christy's face matched vomit in the 
maintenance man's closet. Fibers on Christy's body matched the 
carpet and a blanket in the man's apartment. And police found 
Christy's hair inside of the apartment. We knew who had killed 
our daughter. In 1985, the maintenance man was convicted of 
Christy's murder and sentenced to death.
    The conviction was upheld in a lengthy opinion by the 
Arizona Supreme Court. The killer raised many more challenges 
but his last State appeals were finally rejected in 1992. By 
that time, we already felt that the case had been going on for 
a long time. It had been 7 years. We couldn't imagine that the 
killer would have any more challenges to argue. But in 1992, 
the killer filed another challenge to his conviction in the 
United States district court. That challenge then remained in 
that one court for over 7 years. Finally in November 1999, the 
district court dismissed the case.
    Few years later the Federal Court of appeals for the Ninth 
Circuit sent the case back to the district court for more 
hearings. Today, the case remains before that same Federal 
district court. It has now been over 21 years since Christy was 
murdered. By this fall the case will have been in the Federal 
courts for longer than Christy was ever alive. I cannot 
describe to you how painful our experience with the court 
system has been. I cannot believe that just one court took over 
7 years to decide our case. We want to know will his conviction 
be thrown out? Will there be another trial? I cannot imagine 
testifying at a trial again. And would they even be able to 
convict this man again?
    It has been 21 years. How many witnesses are still here. Is 
all the evidence even still available. Could this man one day 
be released? Could I run into him on the street, a free man, 
the man who assaulted and killed our daughter. The court has 
turned this case into an open wound for our family, a wound 
that has not been allowed to heal for 21 years. Why would we 
want a system that forces someone like me to relive my 
daughter's murder again and again and again.
    My daughter's killer already litigated all of the 
challenges to his case in the State courts. Why should we let 
him bring all the same legal claims again for another round of 
lawsuits in the Federal courts? Why should this killer get a 
second chance? My daughter never had a second chance.
    When you and your colleagues are writing laws, Mr. 
Chairman, please think about people like me. Please think about 
the fact that every time there is another appeal, another 
ruling, another hearing, I am forced to think about my 
daughter's death. Every time I am forced to wonder if only 
Christy hadn't had the cast on her ankle. If only she could 
have gone on the trampoline that evening, she would still be 
alive today. Every time I hear a helicopter, I am terrified. I 
think of the police helicopters searching for Christy on the 
night that she disappeared. Every time I hear a motorcycle, I 
think of my son searching for Christy. Every time that the 
courts reopen this case, I am forced to wonder, why didn't I go 
with Christy to that second apartment. Why did I let that 
neighbor stop me to talk?
    Every time I am forced to think about how scared my little 
girl must have been when she died. I urge you Mr. Chairman, to 
do what you can to fix this system. And my family and I have 
forgiven our daughter's murderer, but we cannot forgive a 
justice system that would treat us this way.
    Mr. Green. Thank you, Mrs. Fornoff. I appreciate you coming 
here and the courage it took for you to tell your story.
    [The prepared statement of Mrs. Fornoff follows:]

                  Prepared Statement of Carol Fornoff

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Green. Mr. Rhodes, welcome.

 TESTIMONY OF JOHN RHODES, ASSISTANT FEDERAL DEFENDER, FEDERAL 
                      DEFENDERS OF MONTANA

    Mr. Rhodes. Mr. Chairman, Ranking Member Scott, Members of 
the Subcommittee, thank you for inviting me to testify today. I 
have been a Federal public defender in the District of Montana 
for over 7 years. Before that I was a State public defender 
where I specialized in serving as a guardian for teenage rape 
victims. In my current job as a Federal defender, I have 
defended hundreds and hundreds of individuals accused of 
Federal crimes, including Indians from six of Montana's seven 
Indian reservations. I represent my clients from their initial 
appearances before United States magistrate judges through the 
conclusion of their cases, including appeals.
    The Major Crimes Act brings reservation offenses normally 
prosecuted in State courts into Federal courts, including 
crimes of violence such as homicide, arson, assault, and sex 
offenses. My practice includes defending Indians in Major 
Crimes Act cases, particularly in assault and reservation sex 
offenses. First and most importantly, I want to emphasize that 
although Native Americans are not named in these bills, the 
bills will have the greatest impact on reservation communities. 
At least half of the Federal sex abuse cases arise on 
reservations. Indian communities believe that disparate 
punishment results from Federal prosecution of reservation 
offenses. The statistics show that they are right. Compared to 
punishment for the same crimes prosecuted in State courts, 
Indians prosecuted in Federal Court receive longer sentences. 
The Native American advisory group convened by the Sentencing 
Commission to look into the impact of the guidelines in Federal 
sentencing on reservations concluded that Federal sentences for 
sexual abuse and assault are longer than those for offenses in 
State court.
    H.R. 2388 would impose long, mandatory minimum sentences 
that the affected tribal communities, including the victims, 
may not support. For instance, under the bill, if two teenage 
boys got in a fight and one of them was under 18, the person 
who was over 18 could end up doing at least 10 years in prison. 
Many of the reservation offenses are committed within the 
family and all of them are committed in small towns and rural 
areas.
    The tribal communities are well aware of the offenses that 
happen on their reservations and the resulting Federal 
prosecutions. The tribes should be consulted regarding the 
appropriate punishment for these crimes, particularly because 
of the tribal emphasis on rehabilitation and community healing. 
I thus recommend that the Congress convene hearings in Indian 
country and apply what is learned from the tribes that are 
going to be impacted by this legislation to deter sex offenses 
and crimes of violence. My personal experience teaches that the 
current penalties and guideline calculations achieve the severe 
punishment that is appropriate for the most culpable 
defendants.
    In April 2003, Congress enacted the PROTECT Act, which 
dramatically increased the punishment for sex offenders by 
imposing mandatory minimums, a two-strikes-you-are-out 
provision, enhancing the guidelines and limiting judicial 
discretion. In October 2003 the Sentencing Commission increased 
sex offense punishments in the guidelines consistent with the 
PROTECT Act. In November 2004, the Commission again 
dramatically increased punishment for sex offenses. These laws 
direct and require harsh sentences when appropriate. Even 
before the PROTECT Act, one of my reservation clients received 
a 33-year sentence in a sex offense case. Under current 
guidelines, his sentence would likely be longer.
    At the other extreme, a child pornography client of mine 
prosecuted before the PROTECT Act has successfully his term--
has completed his term of supervised release, graduated from 
sex offender treatment, and is living with his wife and two 
children and working. Under current law, he would still be 
serving a 5-year mandatory minimum sentence. Under the proposed 
bill, he would be serving a 25-year mandatory minimum sentence. 
Unnecessarily imprisoning such citizens punishes their 
families, their communities, and the taxpayers and erodes the 
respect that anchors our criminal justice system. That is the 
unintended consequence of otherwise well intentioned mandatory 
minimums.
    Such measures are not necessary when severe punishments 
already exist. We have attached to our written testimony 
excerpts from five studies. The first study dated November 2003 
is a report from the Bureau of Justice statistics. It studied 
over 270,000 prisoners released by 15 States in 1994. The study 
found that, compared to non-sex offenders, sex offenders had a 
lower overall re-arrest rate. The other four studies document 
that sex offender treatment reduces recidivism by more than 
half. We request that you direct the Bureau of Prisons to 
establish more than just one sex offender treatment program.
    As you may know, currently, there is only one program for 
sex offenders in the entire Bureau of Prison system and that is 
in Butner, North Carolina. That is particularly problemmatic 
for my clients who are from small towns or rural ranch areas 
and certainly have not been very far from their home, let alone 
across the country. There is a demand for treatment that brings 
us here today and that is why the Bureau of Prisons should be 
directed by yourselves to meet that demand and establish more 
treatment programs. Finally, the availability of habeas corpus 
review exonerated 159 wrongly convicted individuals as 
documented by the Innocence Project. Many of those exonerated 
spent decades in prison.
    Their life was at issue. Finality, while important, must 
never come at the price of certainty. Taking someone's life is 
a hollow virtue without certainty. That is what the great writ 
protects. Thank you for this opportunity to address the 
Committee. I and the Federal public and community defenders 
have a wealth of experience in Federal sentencing generally and 
in the sentencing of Native Americans particularly. We would be 
happy to answer any questions or respond to any requests for 
further information.
    [The prepared statement of Mr. Rhodes follows:]

                   Prepared Statement of John Rhodes

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Green. Thank you, Mr. Rhodes, and thanks to all of our 
witnesses for coming here and testifying today. I will begin 
the questioning. Ms. Parsky, you note that mandatory minimum 
penalties can be an appropriate tool. Can you elaborate this in 
the context of child exploitation and sex abuse crimes.
    Ms. Parsky. Certainly. One of the things that is 
particularly useful about mandatory minimum sentences is that 
they serve the important purpose of deterrence and they send a 
very strong message not only to potential offenders, but also 
to the public at large that the community takes these crimes 
really seriously and that, if they are caught and if they 
commit this conduct, that they will be spending a very long 
time in jail. And, in addition, one other element that is 
important to keep in mind about mandatory minimums that is 
particularly pertinent to the sexual abuse crimes is that they 
incapacitate particularly dangerous individuals and protect our 
communities from those individuals being on the streets. And 
that is important to keep in mind when you are looking at 
mandatory minimums in this context.
    Mr. Green. General Crist, can you describe how the Florida 
Sex Offender Registry works and what the role is that you see 
in coordinating in these areas with Federal law enforcement?
    Mr. Crist. I wanted to make a correction. I think when I 
was describing the four cases that I did I wanted to make sure 
I said that the perpetrator or alleged perpetrator of each of 
those crimes was a probation violator. The way the registry 
works, people have to register, and have their names attached 
once they are found guilty. Let me give you a more precise 
description. To be a subject of a Florida sexual offender 
registry, a person must qualify and be designated as such. 
There are three ways to be designated a sex offender in 
Florida. The first is to commit a qualified crime in the State, 
two, commit a crime in another jurisdiction that meets Florida 
sex offender criteria, or three, be designated a sex offender 
in another jurisdiction. Someone designated as a sex offender 
must register with the State within 48 hours of establishing 
residence. When registering, the offender must provide his or 
her name, Social Security number, physical characteristics, 
residence, employment or school information, and fingerprints.
    Within 48 hours of registering, sex offenders must also 
register with the driver's license office, identify himself as 
a sex offender, and obtain a license or identification card. 
They must maintain this registration for life unless they 
receive a full pardon or the conviction is set aside.
    Mr. Green. Mrs. Fornoff, in your written testimony, you 
give an interesting statistic: Nearly 100 of the death row 
inmates in California have been there for over 20 years. Have 
you been in touch with any of the families of the victims of 
those cases? And if so, can you tell us what you have learned 
from them?
    Ms. Fornoff. I have not been in touch with any of those 
particular victims. In fact, I wrote a letter to support the 
family of Jessica. I happened to be in Florida at the time and 
of course it knocks us out when some other little girl has been 
taken. And I try to write a letter to the family and tell them 
we have gotten through, we will never get over the death of our 
child. And we work with parents of murdered children in 
Arizona. And so I have been supportive of them in that way.
    Mr. Green. Ms. Parsky, you heard Mr. Rhodes' testimony, his 
position that these laws have a disparate impact on offenders, 
Native American offenders. Do you have any response to that in 
terms of the percentage of crimes or victims that might come 
from those areas?
    Ms. Parsky. I don't have particular numbers with me today, 
but there are a couple of points that are important to keep in 
mind with respect to some of his arguments. The first is that I 
think we need to keep in mind that the victims on Indian 
reservations need the same amount of protection as the victims 
anywhere else. And the Federal Government in its enforcement of 
its laws and the Federal legislature in its creation of laws 
sends a powerful message to the Nation about what conduct we 
find reprehensible. We at the Department of Justice deal with a 
lot of different Federal laws that protect children.
    I mentioned child pornography, but also travel for the 
purpose of engaging in sexual acts with children, sex tourism, 
other laws that involve interstate or foreign commerce or 
Federal property. So all of those laws are something we are 
looking to enforce and enforce in a way that is going to send a 
strong deterrent message to the community.
    Mr. Green. Mr. Scott, questions?
    Mr. Scott. Ms. Parsky, in H.R. 2388, it talks about Federal 
crime of violence. What is that? What is a Federal crime of 
violence. Page 2, line 3 of the bill.
    Ms. Parsky. As I indicated in my written testimony, the 
Department is still taking a look at the legislation that has 
been tabled here today, and we don't have a position. This is 
not an Administration bill, so I can't tell you what was 
intended by the language that is in the bill here.
    Mr. Scott. You are not testifying in support of H.R. 2388?
    Ms. Parsky. Our position is we are still reviewing it and 
we are anxious to work with the Committee to provide 
legislation that is going to have an important effect in this 
area.
    Mr. Scott. Are you testifying in favor of H.R. 2388?
    Ms. Parsky. We don't have a position yet.
    Mr. Scott. Federal crime of violence is not a term of art 
for which you know the definition?
    Ms. Parsky. I am not in a position to testify here today to 
as to what was the intent of the definition in the bill.
    Mr. Scott. If it included fist fights under line 23, fist 
fights involving school yard fist fights in which there are no 
injuries, 10 years mandatory minimum isn't the kind of thing 
you are testifying on behalf of today?
    Ms. Parsky. The purpose of my testimony today is to let you 
know that we are very supportive of strong legislation in this 
area, that we do support mandatory minimums in appropriate 
circumstances, and that we are anxious to work with this 
Committee to craft appropriate legislation here.
    Mr. Scott. You indicated that mandatory minimums create a 
deterrence?
    Ms. Parsky. That's correct.
    Mr. Scott. Do you have any studies to support that 
statement?
    Ms. Parsky. I don't have studies with me, but I can tell 
you we would be happy to go back and look for some that would 
address that issue.
    Mr. Scott. You're aware that the Judicial Conference 
categorizes mandatory minimums as a violation of common sense?
    Ms. Parsky. I'm not aware of that quotation.
    Mr. Scott. Every time we consider a bill that has a 
mandatory minimum in it, the Federal Judicial Conference, Chief 
Justice Rehnquist presiding, writes us a letter to remind us 
that mandatory minimums--because if it is the appropriate 
sentence--it can be imposed, and if it doesn't make any sense 
at all, then it has to be imposed anyway, and, therefore, 
mandatory minimums often violate common sense.
    Mr. Green. Is that a question?
    Mr. Scott. It's a quote from the letter of the Judicial 
Conference. How does the child pornography part of the other 
bill--H.R. 2318 doesn't change substantive law, it just changes 
the penalties, is that right?
    Ms. Parsky. That's how I read it.
    Mr. Scott. Mr. Crist, for these cases that you mentioned, 
do you have any indication that State laws are not sufficient 
to deal with the cases that you have recited?
    Mr. Crist. Simply by the fact that they have happened, I 
would answer in the affirmative.
    Mr. Scott. Sorry.
    Mr. Crist. I said simply by the fact that they occurred, I 
would answer yes. They are insufficient. I think they are 
getting better.
    Mr. Scott. How much more time would they get under the bill 
than under your Florida law?
    Mr. Crist. Under your bill?
    Mr. Scott. Under the bill.
    Mr. Crist. I don't know what the time frame would be that 
would be different. We are trying to encourage even more severe 
legislation, more appropriate legislation in Florida and would 
encourage you to do the same in Washington.
    Mr. Scott. Could you remind me what penalties were imposed 
on the cases that you mentioned.
    Mr. Crist. In each of those cases, the individuals that 
were charged with the crime were out on probation at the time. 
They were free.
    Mr. Scott. And what do they get under Florida law and what 
would they get under the bill?
    Mr. Crist. The new Jessica Lunsford Act that we just passed 
does have a minimum mandatory, and that would be 25 to 50 
years.
    Mr. Scott. How many of those cases that you recited would 
be in Federal jurisdiction?
    Mr. Crist. I don't know that any of them.
    Mr. Scott. So this bill wouldn't make any difference at 
all?
    Mr. Crist. I didn't say that either. They might.
    Mr. Scott. Ms. Parsky, if there is Federal jurisdiction on 
these cases, is there concurrent State jurisdiction for 
prosecution in these cases, in any cases for which there would 
only be Federal jurisdiction?
    Ms. Parsky. I think it is hard to answer that question, 
because it really is quite fact-specific. It depends on the 
particular statute. These two bills address a number of Federal 
statutes, some of which might involve conduct that crosses over 
State line. There would be some conduct in each State that 
potentially could be prosecuted by the State but there would 
also be an interstate travel aspect that would bring it under 
Federal law.
    Mr. Scott. Does that mean that there is State jurisdiction 
in just about every one of those cases?
    Ms. Parsky. It is hard to say. There are several different 
statutes implicated. And some of the statutes may involve both 
State violations and Federal violations and some statutes it 
may be limited to Federal.
    Mr. Green. Mr. Lungren, questions.
    Mr. Lungren. Thank you very much, Mr. Chairman. I would 
like to focus on the habeas corpus aspect of this. Mr. Rhodes, 
you made a statement that the report you talked about 
exonerated a number of people. I would like to correct the 
record, it didn't exonerate them, which means innocence. For 
whatever reason, including finding technicalities in those 
particular situations, their particular sentences or 
convictions were overturned.
    And I appreciate your testimony, but I am tired for the 
last 25 years of hearing people talk about exoneration or 
innocence when that is not the case. When I was attorney 
general of the State of California, we probably handled more 
habeas cases than any office in the country. Not only because 
we are the largest attorney general's office, but because we 
happen to be in the Ninth Circuit Court of Appeals, which is 
famous for its judicial activity and its reversal.
    For one term, I remember the Supreme Court reversed 21 out 
of 22 cases from the Ninth Circuit. Ms. Fornoff, when we 
usually focus on these things, we as lawyers focus on the fact 
that there are specific bases that will allow the Federal Court 
to come in and so forth. And you heard some mention that some 
people were exonerated 20 years thereafter. You have brought to 
us the testimony of the other side of the fact, which are the 
family members who sit there and wait and wait and wait and 
wait.
    In 1992, I was at San Quentin when we had the first 
execution in 26 years of Robert Alton Harris, who had murdered 
two teenagers. Wasn't sexual. It was just plain meanness. He 
laughed as he killed them. He told one kid to stand like a man 
and take it and then later on, ate their half eaten hamburgers 
and laughed at his brother who wasn't able to do it. Robert 
Alton Harris, who had gotten a short-term sentence for an 
earlier killing, who had raped in prison and had been out a 
short period of time when he murdered these individuals.
    And that night, the Ninth Circuit seriatim had habeas after 
habeas after habeas granted for stays of execution four times, 
the only time in the history of the United States. It so 
offended the idea of justice that the United States Supreme 
Court withdrew jurisdiction in that case for all Federal courts 
except themselves.
    That has only happened one time in the history of the 
Nation and that was that night. And the reason we have tried to 
reform habeas corpus is because as Mr. Rehnquist has said, the 
jury in our system is supposed to be the main event, not a 
second chance Monday morning quarterbacking by Federal courts 
20 years thereafter who didn't have an opportunity to see the 
witnesses testify. And, if you believe in our jury system where 
you have juries who actually have the opportunity to see 
witnesses and be able to see them as they testify and make a 
judgment as to whether they are saying something that is honest 
or not, you understand what we are talking about when we have a 
distortion of the system.
    With habeas corpus, which assumes that the Federal courts 
somehow have greater wisdom than the State courts. I can never 
understand it. We had a Federal judge in California who became 
the chief justice of the California Supreme Court and suddenly 
because he no longer had the Federal robes but had the State 
robes, he wasn't as wise as these Federal judges who 20 years 
thereafter loved to have these hearings.
    I have been there and seen these evidentiary hearings when 
they bring psychiatrists on 20 years after the event to give us 
an idea of what they think the person was thinking about 20 
years before when the person performed the terrible act. Let's 
be serious about what we're talking about here in terms of 
habeas reform. I'll grant you Mr. Rhodes when a case is set 
aside it is set aside for a reason, but that does not equal 
innocence. And frankly, it is in my judgment misleading to 
suggest that we have saved people from dire straits because 
they weren't guilty, when, in fact, it was set aside for 
various reasons.
    I would just ask you, Ms. Parsky, you have raised some 
concern in your written statement about the habeas provisions 
that are contained in the bill before us, suggesting that by 
limiting it to those who murder children, it might run the risk 
of diverting judicial resources in a way that Federal habeas 
review for other murders might inadvertently be lengthened.
    To me, that is not a criticism of the bill so much as a 
suggestion that maybe we ought to look at broader habeas 
reform. Is that the position of the Justice Department?
    Ms. Parsky. Well, as I indicated, we are still in the 
process of reviewing the bill, but we had hoped to at least 
provide some suggestions for things that the Committee might 
want to consider, and that was one of the points we thought 
should be considered; is that we certainly acknowledge that 
child murderers are particularly heinous offenders and that 
they should be looked at carefully, but that there are also 
other heinous offenders that are currently in custody.
    And so the only point of that comment was to bring it to 
the attention of the Committee so that you may consider that. 
Likewise, with the second point that we made, was just to bring 
the issue to the attention of the Committee, if that in fact 
was----
    Mr. Lungren. The concern I have----
    Mr. Green. The gentleman's time has expired. He may finish 
his point.
    Mr. Lungren. The concern I have is this: When my office 
worked with the Congress a decade ago to get the reforms of 
habeas corpus, we got little, very little, support from the 
Justice Department at that time. In part because it really is a 
problem affecting State court convictions, and we didn't get 
the attention from the Justice Department at that time because 
that was not in their bailiwick.
    All I am asking, does this Justice Department understand 
that even though these are not cases from Federal Court, these 
are cases originating in State court convictions, we need the 
assistance of the Justice Department in understanding the 
concerns people like Mr. Crist have when we are dealing with 
these cases? That is my only point.
    Mr. Green. Mr. Feeney.
    Mr. Feeney. Thank you, Mr. Chairman, and I appreciate all 
the witnesses' testimony. The gentleman from California focused 
on habeas. I'd like to focus on minimum mandatories and 
sentencing guidelines.
    I think my Attorney General put it very good, that 
convicted pedophiles that are a danger to their community are 
well covered by ankle bracelets, but we are better off if they 
are behind bars. In his testimony, he says that.
    Mr. Rhodes talked about the guidelines as part of the 
PROTECT Act, and you refer, on page 7 and 8 of your testimony, 
to what has been referred to by Senator Kennedy and others as 
the Feeney amendment that talks about making it more difficult 
to depart downwards and give out lenient sentences for people 
preying on children in Federal offenses.
    And by the way, I'm glad that Feeney is finally known as a 
noun, other than referring to a human being. I look forward to 
it one day being a verb, you know, like he or she got Feenied.
    But the problem with Feeney is that after Fanfan and 
Booker, which were some of the most nonsensical opinions I have 
ever read by our Supreme Court, nobody knows what the status of 
the guidelines are. And as you point out on page 8 of your 
testimony, the downward departures under Feeney are limited and 
have to be spelled out in the guidelines. We don't know if the 
guidelines are anything other than mere suggestions, and we 
have got some courts deviating downwards on a 2 percent basis; 
in other courts, some Federal crimes, deviating downward as 
much as 62 percent of the time. So there is little or no 
uniformity from one jurisdiction to another, often from one 
court to another, and it is a big problem.
    After Booker and Fanfan, where, by the way, only two of the 
nine Justices said the guidelines themselves were 
unconstitutional per se, the five justices that threw out the 
guidelines only had a majority because of the situation where 
greater sentences are given without jury involvement. Scalia 
and Thomas, for example, think the guidelines themselves are 
constitutional.
    But then the court went on in the remedial phase with a 
different five-member majority and totally threw out the 
guidelines as being anything other than mere suggestions to 
Federal courts.
    So, Mr. Rhodes, much of your argument, matter of fact the 
whole basis of your argument in point three, the sentencing 
guidelines reflect the seriousness of the crimes. To the extent 
that we don't know what the status of the guidelines are, how 
can they be a deterrence in any way, shape, or form, let alone 
protect people, if the Supreme Court has now said that the 
guidelines, specifically the Feeney amendment, designed to 
protect children, are not mandatory in any way, shape, or form?
    Mr. Rhodes. First----
    Mr. Feeney. You don't like minimum mandatories. You like 
the guidelines, other defense lawyers didn't. The guidelines 
are now almost meaningless.
    Mr. Rhodes. First, the Booker and Fanfan decisions did not 
address the Feeney amendment or the PROTECT Act. In fact, 
conspicuous by its absence is there was no reference in any of 
the opinions to 18 USC 3553(b)2.
    Mr. Feeney. Well, that's true, but they addressed the whole 
issue of guidelines, which is largely what your testimony 
regarding the PROTECT Act and Feeney relates to, the 
guidelines. And the guidelines are in a state of real limbo. I 
think everybody would acknowledge that right now.
    Mr. Rhodes. The decisions addressed the guidelines for all 
offenses other than sex offenses. Now, there is an issue 
playing out in the district courts and the court of appeals as 
to whether Booker and Fanfan should also be applied to sex 
offenses and, in those cases, whether the guidelines should be 
advisory.
    Even with the guidelines being advisory following the 
Booker and Fanfan decisions, I believe the impact of the Feeney 
amendment is still being felt and is being effective in Federal 
sentencing.
    Mr. Feeney. If I can, I appreciate that, and maybe you will 
have time to elaborate in the second round, but, Ms. Parsky, 
Mr. Scott, I think, is correct on two points. Number one, we 
don't know whether or not there is real deterrence in this type 
of crime. One of the reasons people don't underreport their 
income to the IRS is that they are deterred. But to the extent 
that these are crimes that people really cannot help 
themselves, deterrence may not work. But separation from 
society works, and society, in my view, has a right to 
retribution. So there are at least three reasons for minimum 
mandatories, especially if the guidelines don't work.
    And with respect to Mr. Rehnquist and the Judicial 
Conference position that minimum mandatories defy common sense, 
can you tell us your opinion whether or not some of the lenient 
decisions handed out by our Federal judges and the effect that 
they have on repeat perpetrators that Attorney General Crist 
and Mrs. Fornoff referred to, does it make common sense to have 
judges be the ultimate arbiter of whether or not a pedophile 
should be given a second chance in society in each and every 
case?
    Ms. Parsky. I think there may have been a few questions in 
there, but I'll address a couple of points quickly. The first, 
with respect to what kind of impact mandatory----
    Mr. Feeney. When the clock turns yellow, you get as many 
questions in as possible.
    Ms. Parsky. With respect to what effect mandatory minimums 
have in the Federal system, I can tell you that there are many 
areas where, when a particular Federal district starts taking 
cases and making them Federal, you hear about the impact on the 
community, because there can be very stiff penalties because 
there is truth in sentencing, because there have been these 
sentencing guidelines that provide for determinant sentencing. 
And that's something that's been a very important tool in order 
for us to really bring down crime rates to one of the lowest 
points in, I think, 20 years. And mandatory minimums are a big 
part of that because we need a way to assure that consistency.
    Mr. Feeney. Mr. Chairman, with unanimous consent, does that 
lowest crime rate in 20 years relate to offenses against 
children?
    Ms. Parsky. I don't know exactly what the breakdown is, but 
I can get that for you. I think it's a general crime rate.
    Mr. Green. The gentleman's time has expired.
    Mr. Keller.
    Mr. Keller. Thank you, Mr. Chairman. I had a question for 
the Attorney General, who is out of the room right now, but I 
will direct my question to Mrs. Fornoff, and I'll just boil it 
all down for you.
    We have a fork in the road here in Congress. The issue is 
what to do about child sex-offenders who repeatedly molest 
children. Do we protect other kids by locking these child 
predators away in a prison cell for at least 30 years? Or do we 
coddle these criminals by providing them with more money for 
rehabilitation and treatment and allow a judge to have the 
discretion to let them out of prison after 6 months or a year?
    Some of those in the lock-them-up camp, such as myself, 
believe that that is the only way to protect children. Under 
existing law, if you are convicted of aggravated sexual abuse 
for children, you can be sentenced from zero years to life. 
Under this bill, there would be a 30-year mandatory minimum. 
Under the new Florida law, there would be a 25-year mandatory 
minimum.
    The other side, as articulated by Mr. Scott and one of the 
panelists, is that philosophically divergent scholars and 
liberal Berkeley law professors disagree with us.
    Let me ask you: Do you have a position as to what camp you 
are in, as someone who has been through this tragedy?
    Mrs. Fornoff. Yes. Yes, I do.
    Mr. Keller. What is your position?
    Mrs. Fornoff. I do not believe that pedophiles can be back 
on our streets. I believe they need to be locked up. Because I 
do not believe that it has been proven that you can help them.
    Mr. Keller. Thank you.
    Ms. Parsky, let me direct that question to you. I know 
Justice isn't taking a formal position on this. Do you have any 
reason to believe that, if we only spent more money on 
rehabilitation and treatment, that we would have repeated child 
molesters get out of prison and go on to lead a perfectly 
normal life without any risk to our young people?
    Ms. Parsky. What our approach to this problem has been is 
that we need to apply every available tool to try to prevent 
the problem. In some appropriate circumstances, preventive and 
rehabilitative services may be appropriate, but you also need 
to have very stiff penalties. And you need to have the ability 
to put people behind bars for long periods of time when they 
clearly pose a risk to the community.
    So we have tried to approach this from all different angles 
so that we are providing the most for our communities in terms 
of protection, in terms of punishment, and in terms of 
deterrence.
    Mr. Keller. As you look at this bill and decide, as the 
Justice Department looks at this bill and decides what they 
think of the merits, do you understand the concern that 
Congress has that under the current penalty for aggravated 
sexual abuse, the crime can be sentenced at zero to life; that 
we're a little uncomfortable with that discretion for a judge?
    Ms. Parsky. As I've said, we are taking the entire bill 
into consideration, but I certainly understand the need in this 
area for consistency and fair but harsh punishments.
    Mr. Keller. Right.
    Mr. Rhodes, you have the hardest job here today, and I am 
not going to get up here and prance around with any hard 
questions, but one of the things you mentioned is you cite some 
sort of recidivism statistic. And I just have to tell you, as 
someone from Florida who has lived through this tragedy in the 
past few months, I don't think those statistics are going to 
give any comfort to the parents of Jessica Lunsford or Sarah 
Lunde, who just had their children abducted, raped, and killed 
by people who had done it before.
    Can you understand the frustration Congress has with that 
position?
    Mr. Rhodes. Certainly. That is why I mentioned at the 
beginning of my testimony I used to be the guardian for teenage 
rape victims, girls who were typically groomed by their 
stepfathers for sexual relations. So I know that side of the 
situation.
    But I also know that I have many clients who are convicted 
sex offenders who are living successfully in the community. To 
me, it doesn't make sense for them or the communities to lock 
them up forever, because that doesn't seem to be justice. And 
it doesn't do them any favors, and I don't believe it does the 
community any favors.
    And I, again, emphasize the aggravated sexual abuse and the 
aggravated sexual contact cases come off of reservations 
overwhelmingly. And I think it is imperative that Congress 
consult the tribes and the communities to see what they think 
is best.
    Mr. Keller. If you had a three-time child molester live 
next door to you, who had had the appropriate rehabilitation 
and treatment, would you be comfortable leaving your little 
girl alone with him?
    Mr. Rhodes. I can honestly say one of my clients, who was 
convicted of child pornography, just got out of prison. My wife 
is pregnant, if he moved next door to us, that would be fine by 
me.
    I would also add, I mentioned in response to some earlier 
questions that the PROTECT Act provisions, many of them still 
are very effective in Federal sentencing, in particular the 
two-strikes-you're-out provision at 18 USC 3559(e). Also, in 
the guidelines, there is a variation of the two-strikes-you're-
out-provision at section 4(b)1.5.
    Mr. Keller. Mr. Chairman, can I ask unanimous consent just 
to ask one question to Mr. Crist, who was not here for my 
questioning?
    Mr. Green. Without objection.
    Mr. Keller. Mr. Crist, the issue before us is, what do we 
do with these repeated child sex offenders? Do we lock them up 
in a prison, or do we instead give them more money for 
treatment and rehabilitation and allow a judge to have the 
discretion to let them out after 6 months or 1 year?
    You outlined in your testimony the tragedy of the killings 
of the 9-year-old girl, Jessica Lunsford, and the 13-year-old, 
Sarah Lunde. Can you elaborate on the criminal histories and 
sex offender status of the two men charged with those heinous 
crimes?
    Mr. Crist. Yes. In both of those cases, the perpetrator or 
alleged perpetrator had a history of violence. It seems to me, 
and what we have tried to propose in Florida, and certainly 
would be encouraged to do here, is along the lines of what I 
know both you and Congressman Feeney believe in; that is we 
need to do first things first, and that is to protect our 
citizens.
    I mean, they had violent histories. They had served their 
time. They had, in essence, paid their debt to society and 
gotten out and been placed on probation, but then they violated 
the privilege of probation. Some would argue that it was minor, 
but nevertheless violated. At that point, we knew that 
something was going wrong. They went before the judge. The 
judge had the opportunity to make one of two decisions: Let 
them continue on that privilege and roam the neighborhoods of 
our State, or have the opportunity to have them reincarcerated 
to protect the citizens of our State.
    Unfortunately, they chose the former. They decided to let 
them stay out. We in the Attorney General's Office this year 
proposed legislation that in essence would have said they had 
to go back to jail if they violated the second chance given to 
them by our criminal justice system, in order to do the first 
thing that is in the first line of the Constitution: To insure 
domestic tranquility--to protect people, to make sure that law-
abiding citizens are afforded the protection that they deserve 
and expect. And that really is the whole purpose to have 
Government in the first place.
    I think their backgrounds coupled with what the solutions 
can be in addition to the Feeney amendment, to what 
Congresswoman Ginny Brown-Waite has done, Congresswoman 
Katherine Harris and Mark Foley and so many others from 
Florida--because of the Florida experience, if you will, I 
think we have probably a heightened interest and concern about 
what has happened.
    I appreciate the question.
    Mr. Green. I thank the gentleman.
    Ms. Waters has joined us. Questions, please.
    Ms. Waters. Thank you very much. I am sorry I could not be 
here earlier, but I do commend you for having this hearing. 
This is a problem that I think most Americans are absolutely 
pained about, what appears to be the growing abuse of children. 
And even though I am opposed to mandatory minimum sentencing, 
and I think we are taking all discretion away from judges to 
make decisions and to know all the circumstances and to take 
them into consideration. If I ever was to support mandatory 
minimum sentencing, it would be in this area.
    But I want to raise a question of Ms. Parsky, and this is 
going to be a very sensitive question. I am concerned about 
those people who know about crimes against children, these 
sexual abuse cases, who do not seem to have a responsibility to 
report what they know, particularly concerned about the 
organized church and the fact that we are hearing over and over 
again that the hierarchy in the Catholic Church. For example, 
have known about abuses, and they have transferred priests from 
one parish to another parish, and this has been going on for 
years.
    This is a subject that people don't like to touch. They 
don't like to talk about it, but I do. I want to talk about it. 
What is the responsibility of the head of the organized 
religion in a supervisory or managerial role, who knows about 
the abuse, sexual abuse of children, and they do not report it 
to the authorities, they do not report it to the justice system 
at all, they simply transfer the abuser to another location? 
What do we have in law to protect young children that are in 
these situations?
    Ms. Parsky. Well, I appreciate your question, because I 
think part of what brings us here today is a sense of community 
responsibility; that it's a Federal responsibility; that it's a 
State responsibility; and that those who are in religious 
organizations or any other type of organization also have a 
responsibility to protect our children.
    I can't speak to the different State laws that might apply 
to that kind of situation. I can point you to 18 U.S.C. Section 
2258, which penalizes a failure to report a child abuse crime 
if there is someone who is engaged in a professional capacity 
or activity, be it on Federal lands or in a federally-operated 
facility. But in addition, I would assume that there are many 
States that have many other types of reporting requirements for 
those who are in some sort of professional capacity where they 
have an additional responsibility.
    Ms. Waters. So does this not cover--this law does not cover 
the church?
    We have another case that was just revealed to us that you 
may know about, just a few days ago, about an operation that's 
been going on for some time in a church where children are 
being sexually abused. It was just revealed last week. I 
believe it was in the national media. Are you familiar with 
that?
    Ms. Parsky. I'm afraid I'm not familiar with that.
    Ms. Waters. Okay. Well, let me just say that the law you 
pointed to does not in any way cover what I am attempting to 
describe. The law does not cover the cases that we all heard 
about in the Catholic Church.
    Ms. Parsky. Since I'm not familiar with the circumstances 
you are describing--this is a particular Federal statute. But I 
would also urge you to look to State law for some of those 
circumstances.
    Ms. Waters. Let me ask, in addition to all of the concerns 
that we have, as we look at creating mandatory minimums, is 
there anyone else concerned about sexual abuse of children by 
organized religion or any other organizations that people in 
supervisory or managerial positions keep secret and do not 
report to the law? Anyone else concerned about that?
    Mrs. Fornoff. Excuse me, I am.
    I'm Carol Fornoff, and I'm a parent and a grandparent. And 
in our State of Arizona, we have had so many of these cases. 
And the laws weren't written, I guess, then. But now, I know, 
as far as the church, the Catholic Church, they have really 
stepped up to the plate, and I believe that it will not happen 
again. But it is a sorrowful thing that it did.
    Ms. Waters. You mean that there is something that happened 
inside the church where they are taking responsibility. But you 
don't know of anything in your State? Have they produced any 
new State laws?
    Mrs. Fornoff. I believe they have, because our bishop was 
just taken out of the bishopric because of ignoring the priest 
that had done these things.
    Ms. Waters. Did he go to jail?
    Mrs. Fornoff. He did not. He is not in jail.
    Ms. Waters. Just stripped of the title.
    Mrs. Fornoff. Yes.
    Ms. Waters. Okay. Thank you very much.
    Mr. Green. I thank the gentlewoman.
    Again, I thank all the witnesses for coming and testifying 
today, as well as all those who have attended the hearing. 
Thank you very much.
    Mr. Scott. Mr. Chairman?
    Mr. Green. Yes.
    Mr. Scott. Mr. Chairman, I understand you are not going to 
have another round of questions, but I would like to alert Ms. 
Parsky that we'll be asking for a prison impact statement on 
the legislation, pursuant to the code section that allows us to 
get a prison impact statement, and would appreciate it if she 
would try to conduct a cost-benefit analysis comparing the cost 
and benefit of the cost and benefit to the rehabilitation 
programs that they have at one prison on dealing with child 
sexual offenders.
    Mr. Green. And to that end, let me say, in order to ensure 
a full record and out of consideration of the important issues 
that have been testified to today, the record will be left open 
for additional submissions for 7 days. Also, any written 
questions that a Member wants to submit, should be submitted 
within that same 7-day period.
    This concludes the legislative hearing on H.R. 2318, the 
``Protection Against Sexual Exploitation of Children Act of 
2005,'' and also H.R. 2388, the ``Prevention and Deterrence of 
Crimes Against Children Act of 2005.''
    Again, I thank everyone for their cooperation and 
attention, and the Subcommittee stands adjourned.
    [Whereupon, at 3:28 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of Congressman Robert C. ``Bobby'' Scott, Ranking 
 Member Subcommittee on Crime, Terrorism and Homeland Security Hearing

    Thank you, Mr. Chairman. As usual, every two years, we pontificate 
about crimes against children and dramatically increasing federal 
sentences. We are doing so despite the fact that crimes against 
children prosecuted in federal court constitute a very small percentage 
of such crimes and represent none of the horrendous crimes against 
children that have been in the media in recent months. There is no 
evidence that federal prosecutions of crimes against children has a 
significant impact on these horrendous state crimes against children, 
nor that either state or federal laws for crimes against children are 
too lenient. Indeed, we recently dramatically increased federal 
sentences for crimes against children in the PROTECT Act. We have not 
had time for enough cases to be sentenced under these increases to even 
evaluate their effect, if any, before we are back again proposes more 
draconian increases in federal sentences.
    We are moving forward in dramatically increasing federal sentences 
in the worst possible way - through greatly increased mandatory minimum 
sentences. Mandatory minimum sentences only affect those whose offense 
or role in an offense warrant a less severe sentence, since those who 
warrant more already get more under the sentencing guidelines. I call 
attention to the recommendations released today by a group of bi-
partisan, philosophically diverse scholars and high level current and 
former public policy makers, led by former Attorney General Edwin Meese 
and former Deputy Attorney General Phillip Heymann, indicating that 
sentencing policies should provide for proportionality and sufficient 
flexibility to reflect differences in role and background of offenders.
    And these increases are occurring at a time when the evidence from 
the Department of Justice is that sex offenders recidivate at a lower 
rate than other offenders, in general, with a 5% recidivism rate for a 
new sex offense and a 3.3% rate for child molesters recidivating with a 
new offense of that nature. I will ask that this study and 4 others 
from other sources, be made a part of the record. Also, the evidence 
reveals that this low recidivism rate is cut in half with sexual abuse 
treatment. While any recidivism is bad, 5% and 3% rates with the 
prospect of being cut in half certainly does not suggest the situation 
is hopeless. Yet, there is nothing in this bill to ensure treatment for 
those offenders who seek treatment or who are already serving sentences 
and will be leaving prison soon. The bills before us suggest that it is 
better to wait for the victimization to occur and then apply draconian 
penalties.
    One of our speakers at an earlier hearing on this subject, 
Criminologist and professor of Law Frank Zimmer of the Berkeley School 
of Law, pointed out that treating all offenses and offenders the same 
and mandating life sentences for repeat offenders, regardless of the 
crime, may actually endanger more children than it helps. He expressed 
the concern that putting an offender in the position of concluding that 
once a crime is completed or attempted, he is facing a minimum of a 
life sentence, will likely cause him to conclude that his best chance 
of avoiding detection and a witness against him is to kill the victim. 
Certainly this question should be considered against the conventional 
justification for harsh mandatory minimums of forcing co-defendants to 
testify against their partners in crime, since these crimes are more 
often carried out by lone offenders.
    We also know that greatly increasing federal sentences will 
disproportionally affect Native Americans simply because they are more 
likely to fall under federal jurisdiction, whereas those who are 
committing the horrendous crimes giving rise to this federal sentencing 
frenzy actually fall under state court jurisdiction. And we are doing 
so with no consultation with Native American tribal authorities as we 
have in the past when we have dramatically increased sentencing, such 
as we did with the ``3 strikes you're out'' law and the death penalties 
in the 1994 Crime Bill. There is certainly no evidence that Native 
Americans have asked that offenders on tribal lands be treated more 
harshly than offenders in the state courts right next to them. It 
simply appears that having politicians able to prove how tough they are 
on crime in an election year is more important than plain fairness to 
Native Americans and respect for their tribal sovereignty.
    Finally the provisions of the bills before us exacerbate an already 
horrendous federal sentencing scheme. For example, under PROTECT Act 
provisions, we provided a 5-year mandatory sentence to transport a 
minor, or to travel, across state or international lines, to commit any 
criminal sex offense involving a minor. This bill increases that 
mandatory minimum sentence to 30 years. That means that an 18 year old 
high school student who transports or causes a minor to travel, from DC 
to Virginia to engage in consensual sex, thereby committing the crime 
of contributing to the delinquency of a minor, would be subject to a 
30-year mandatory minimum sentence. One can only imagine how many times 
this law is violated in this area during prom season. What possible 
sense does it make to mandate 30 years for this type case?
    Under H.R. 2388, it appears that mere fist fights between 
teenagers, if one is under 18 and is even slightly injured, require a 
mandatory minimum sentence, even if the younger teen is the instigator.
    And the provision limiting habeas jurisdiction will only increase 
litigation and delays and increase the risk that innocent people will 
be put to death. Several of the 159 people who were exonerated of their 
crimes over the past 10 years, including some on death row, received 
that exoneration after more than 20 years.
    So, Mr. Chairman, I look forward to the testimony and enlightenment 
of our witnesses on the bills before us. Thank you.

                              ----------                              

         Prepared Statement of Congresswoman Sheila Jackson Lee

    The problem of violence against children and sexual exploitation of 
children has been highlighted by recent events involving brutal acts of 
violence against children. Recent examples include: (1) the abduction, 
rape and killing of 9 year old Jessica Lunford (who was buried alive); 
(2) the slaying of 13 year old Sarah Lunde, both of whom were killed in 
Florida by career criminals and sex offenders. In Philadelphia, four 
defendants were charged with the stabbing and killing of a 15 year old 
girl, who they then threw into the Schuykill River. All of these tragic 
events have underscored the continuing epidemic of violence against 
children.
    In addition, the sexual victimization of children is overwhelming 
in magnitude and largely unrecognized and underreported. Statistics 
show that 1 in 5 girls and 1 in 10 boys are sexually exploited before 
they reach adulthood, yet less than 35 percent of the incidents are 
reported to authorities. This problem is exacerbated by the number of 
children who are solicited online - according to the Department of 
Justice 1 in 5 children (10 to 17 years old) receive unwanted sexual 
solicitations online.
    Department of Justice statistics underscore the staggering toll 
that violence takes on our youth (DOJ national crime surveys do not 
account for victims under the age of 12, but even for 12 to 18 year 
olds, the figures are alarming). Data from 12 States during the period 
of 1991 to 1996 show that 67 percent of the all victims of sexual 
assaults were juveniles (under the age of 18), and 34 percent were 
under the age of 12. One of every seven victims of sexual assault was 
under the age of 6.
    While I strongly support the idea of protecting our children for 
being sexually exploited, I am not in favor of mandatory minimums. Both 
H.R. 2318 and H.R. 2388 impose unnecessary mandatory minimals and for 
this reason I can not support either bill.

                              ----------                              

 Center for Sex Offender Management, ``Recidivism of Sex Offenders,'' 
     May 2001, available ar http://www.csom.org/pubs/recidsexof.pdf

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
   Dennise Orlando, `Sex Offenders,'' Special Needs Bullentin No. 3, 
                             September 1998

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
Department of Rehabilitation and Correction, State of Ohio, ``Ten-Year 
   Recidivism Follow-up of 1989 Sex Offender Releases,'' April 2001, 
    available at http://www.drc.state.oh.us/web/Reports/Ten--Year--
                             Recidivism.pdf

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
U.S. Department of Justice, Bureau of Justice Statistics, ``Recidivism 
    of Sex Offenders Released from Prison in 1994,'' November 2003, 
     available at http://www.ojp.usdoj.gov/bjs/pub/pdf/rsorp94.pdf

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 U.S. Sentencing Commission, ``Report of the Native American Advisory 
   Group,'' November 4, 2003, available at http://www.ussc.gov/NAAG/
                             NativeAmer.pdf

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Jan Looman, Jeffrey Abracen, and Terry P. Nicholaichuk, ``Recidivism 
   Among Treated Sexual Offenders and Matched Controls,'' Journal of 
           Interpersonal Violence, Vol. 15 No. 3, March 2000

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
      Letter from the Honorable Jon Kyl to the Honorable F. James 
                   Sensenbrenner, Jr. (June 9, 2005)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
   Senator Jon Kyl, Introduction of the Streamlined Procedures Act, 
                Congressional Record, pages S5540-S5543

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 The Streamlined Procedures Act Section-by-Section Analysis, submitted 
                  by the Honorable Jon Senator Jon Kyl

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

 S. 1088, the ``Streamlined Procedures Act of 2005,'' submitted by the 
      Honorable Jon Kyl, a U.S. Senator from the State of Arizona
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

U.S. Department of Justice, Bureau of Statistics, ``Criminal Offenders 
  Statistics,'' available at http://www.ojp.usdoj.gov/bjs/crimoff.htm

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Letter from John Rhodes, Assistant Federal Defender to Bobby Vasser, 
   Minority Counsel, Subcommittee on Crime, Terrorism, and Homeland 
                                Security

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
